<html>
<title> - SUCCESSFUL IMPLEMENTATION OF TITLE I: STATE AND LOCAL PERSPECTIVES</title>
<body><pre>[Senate Hearing 107-675]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-675
 
                 SUCCESSFUL IMPLEMENTATION OF TITLE I: 
                      STATE AND LOCAL PERSPECTIVES
=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

  EXAMINING STATE AND COMMUNITY PERSPECTIVES OF THE IMPLEMENTATION OF 
 TITLE I OF H.R. 1, TO CLOSE THE ACHIEVEMENT GAP WITH ACCOUNTABILITY, 
        FLEXIBILITY, AND CHOICE, SO THAT NO CHILD IS LEFT BEHIND

                               __________

                           SEPTEMBER 10, 2002

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions









                       U. S. GOVERNMENT PRINTING OFFICE
81-758                           WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman
CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio
           J. Michael Myers, Staff Director and Chief Counsel
             Townsend Lange McNitt, Minority Staff Director
                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                      TUESDAY, SEPTEMBER 10, 2002

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor and Pensions, opening statement...............     1
    Prepared statement...........................................     2
Wheelan, Belle S., Secretary of Education, Commonwealth of 
  Virginia.......................................................     4
Moloney, William J., Commissioner of Education, Colorado 
  Department of Education, Denver, CO, prepared statement........     9
Casserly, Michael, Executive Director, Council of the Great City 
  Schools, Washington, DC, prepared statement....................    54
Gaddis, Wanda, Parent, Washington, DC, on behalf of the National 
  PTA, prepared statement........................................    68

                          ADDITIONAL MATERIAL

Response to questions of Senator Kennedy from Belle S. Wheelan...    82
Virginia Local School Divisions, survey..........................    82


   SUCCESSFUL IMPLEMENTATION OF TITLE I: STATE AND LOCAL PERSPECTIVES

                              ----------                              


                      TUESDAY, SEPTEMBER 10, 2002

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                     Washington, DC
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-430, Dirksen Senate Office Building, Hon. Edward M. Kennedy 
(chairman of the committee) presiding.
    Present: Senators Kennedy, Jeffords, and Bingaman.

              OPENING STATEMENT OF SENATOR KENNEDY

    The Chairman. We have a vote at half past 10, sort of a new 
tradition around here, unfortunately. We used to always vote in 
the afternoon, but now, sometimes and too often, we are voting 
in the morning, which interrupts our hearings, but nonetheless 
we will follow the Senate procedures and move ahead with our 
hearing this morning. We will be joined shortly by a number of 
our colleagues.
    Today we continue our series of oversight hearings on the 
implementation of the No Child Left Behind Act, signed into law 
in January. Our hearing today focuses on the implementation of 
the largest program in that law, Title I.
    Title I is the foundation of our Federal education law for 
elementary and secondary education. It provides funding to help 
students and teachers in schools that are falling behind. Title 
I embodies our commitment as a Nation to provide all Americans 
with an equal shot at the American dream.
    But today that commitment is in jeopardy. The 
Administration's education budget puts a quality education out 
of reach for millions of our school children and college 
students. It shortchanges Title I, but it also does nothing to 
help schools achieve smaller class sizes and train quality 
teachers, and it adds not one dollar to the Pell grants just as 
young Americans are facing double-digit increases in college 
tuition.
    Good schools and good teachers are every bit as important 
to the future strength of our country as a strong defense. So 
today, Congressman George Miller and I will send a letter to 
the President, urging him to respond to the crisis in education 
that is gripping our country. We believe his education budget 
is inadequate to today's challenges. But even since it was 
submitted, State budget crises have forced over $10 billion in 
cuts in education.
    Budgets are tight, but somehow, the Administration has 
found billions of dollars in its budget for private school 
voucher schemes when those scarce dollars should be invested in 
our public schools, where 90 percent of our students attend 
school each day.
    Today's hearing focuses on the implementation of the 
reforms of Title I enacted earlier this year.
    We welcome our distinguished panelists today and look 
forward to learning about their plans to successfully implement 
the new Title I, the challenges they face, and how the 
Administration and Congress can help them overcome those 
challenges.
    Our panel includes Belle Wheelan, who is the Virginia 
Secretary of Education. Prior to her appointment, Dr. Wheelan 
served as president of the Northern Virginia Community College, 
the second-largest community college in the Nation. She has 18 
years of administrative experience at various community 
colleges throughout the State of Virginia. She is a highly 
respected member of the education field, and I am very pleased 
to have her here and look forward to her testimony on 
implementing Title I in Virginia.
    We would like to welcome Dr. William Moloney, the Colorado 
Commissioner of Education and Secretary of the Colorado State 
Board of Education. Dr. Moloney has previous experience as a 
teacher, assistant principal, principal, headmaster, assistant 
superintendent, and superintendent in States across the 
Northeast. Dr. Moloney has also served three terms on the 
National Assessment Governing Board. We are pleased to welcome 
Dr. Moloney today and look forward to his testimony.
    We would like to welcome Michael Casserly, who is executive 
director of the Council of the Great City Schools. For over 20 
years, Mr. Casserly has been an active crusader for the urban 
public schools of our Nation's largest cities. As executive 
director of the Council of the Great City Schools, Mr. Casserly 
heads the only national organization to exclusively represent 
such schools. Dr. Casserly also has extensive research 
background, having created the first ever report card on urban 
school quality and national urban education goals. We are 
pleased to have him here today and look forward to his 
testimony on the implementation of ESEA from a district 
perspective.
    We also want to welcome Wanda Gaddis, who is the parent of 
a first grade daughter who attends public school here in 
Washington, DC. Education reform will not be successful without 
the input and help of parents across the country. I look 
forward to Ms. Gaddis' testimony on how we can best implement 
the No Child Left Behind Act from a parent's perspective. We 
have many provisions in the legislation to include parents, and 
we want to find out how those provisions are being implemented.
    So we look forward to the testimony, and I will ask Ms. 
Wheelan if she would be good enough to start.
    [The prepared statement of Senator Kennedy follows:]
            Prepared Statement of Senator Edward M. Kennedy
    Today, we continue our series of oversight hearings on the 
implementation of the No Child Left Behind Act, signed into law in 
January. Our hearing today focuses on the implementation of the largest 
program in that law, Title I.
    Title I is the foundation of our Federal education law for 
elementary and secondary education. It provides funding to help 
students and teachers in schools that are falling behind. Title I 
embodies our commitment as a Nation to provide all Americans with an 
equal shot at the American dream.
    But today that commitment is in jeopardy. The Administration's 
education budget puts a quality education out of reach for millions of 
our school children and college students. It shortchanges Title I, but 
it also does nothing to help schools achieve smaller class sizes and 
train quality teachers, and it adds not one dollar to Pell Grants just 
as young Americans are facing double digit increases in college 
tuition.
    Good schools and good teachers are every bit as important to the 
future strength of our country as a strong defense. So today, 
Congressman George Miller and I send a letter to the President, urging 
him to respond to the crisis in education that is gripping our country. 
We believe his education budget is inadequate to today's challenges. 
But even since it was submitted, State budget crises have forced over 
$10 billion in cuts for education.
    Budgets are tight. But somehow, the Administration has found 
billions of dollars in its budget for private school voucher schemes 
when those scarce dollars should be invested in our public schools, 
where 90 percent of our students attend school each day.
    Today's hearing focuses on the implementation of the reforms to 
Title I enacted earlier this year.
    Over the years, we have taken steps to improve the effectiveness of 
Title I, and in 1965, the first year of the Title I program, Title I 
was essentially a block grant. After 4 years of implementation, Title I 
block grant funds were not helping the neediest students get a better 
education. A 1969 report found widespread abuse of the Title I block 
grants, including:

    <bullet> Communities had used Title I block grants for swimming 
pools in Memphis, Tennessee, band uniforms in Oxford, Mississippi, and 
football uniforms in Macon County, Alabama; and
    <bullet> In Louisiana and California, funds were spent on schools 
that were ineligible for Title I because they did not have high numbers 
of poor children.

    We've come a long way since then. Title I is successfully helping 
the neediest children across the country get a good education. In 
Broward County, Florida, reading scores for 4th graders went up by 25 
points from 1999 to 2000. Last year, Sacramento, California improved 
its reading and math performance on the statewide test in every grade. 
And, I'm certain we will hear of more successes today.
    Building on those successes, we made a bipartisan commitment last 
year to ensure that not some, but all students were part of this 
success. We did this by increasing accountability through rigorous 
annual goals for improving achievement, ensuring a qualified teacher in 
every classroom, and providing increased resources for programs that 
work.
    In August, the Administration released draft regulations for Title 
I, and they are working to finalize those so that states, districts, 
teachers, and parents will have a clearer sense of what is expected of 
them under the new law. I hope that the final regulations will protect 
the rights of teachers as workers, will uphold the law with reasonable 
public school choice provisions, and will ensure that supplemental 
service providers are held to a standard of quality and that they must 
serve all children.
    But in the end, schools cannot fulfill the promise of this new law 
if they do not have the resources to meet these goals. I hope that the 
Administration will work with us to increase funding for education this 
year. With more requirements to meet, more progress to achieve, and 
increased State and local budget shortfalls, schools and teachers need 
more Federal resources to make this law a success.
    The Administration has proposed the smallest education budget 
increase in 7 years. Less than 2 months after passage of the No Child 
Left Behind Act, the Administration proposed a budget that is $7 
billion less than the amount promised in that legislation and cuts 
funding for school reform.
    Under Title I alone, 6 million children will be left behind. In 
other programs, 33,000 fewer students will be served in after-school 
programs. 25,000 limited English proficient children will be cut from 
Federal bilingual education programs. 18,000 fewer teachers will be 
trained.
    The growing State and local budget crisis borne of the down-turned 
economy has led to dramatic cuts in neighborhood schools across the 
country.

    <bullet> This Fall, over 100 rural school districts in South 
Dakota, Louisiana, Oregon, Colorado, New Mexico, and Wyoming will cut 
from 5-day to 4-day school weeks.
    <bullet> Schools in Barnstable, Massachusetts, are charging fees in 
the hundreds of dollars for busing, for all day kindergarten, and for 
music education.
    <bullet> In Centennial, Minnesota, we are told that class sizes 
will increase to 29 and 30 students per teacher to cope with budget 
shortfalls.

    Now, despite increased public education challenges, inadequate 
Federal support, and greater public school needs, the Administration 
presses anew for private school vouchers. This week, the House 
Republican leadership plans to bring to the floor a tax package that 
diverts $4 billion in funds to private school vouchers.
    We should reject the private school voucher plans and increase 
funding for public schools that educate 90 percent of the children in 
this nation, so that we help ensure that no child is left behind.
    Every dollar in subsidies to private school vouchers means a dollar 
less for public schools. $4 billion in vouchers could instead be used 
to:

    <bullet> Upgrade the skills of 1 million teachers;
    <bullet> Provide 5.2 million more children with after-school 
learning opportunities; or
    <bullet> Provide specialized instruction to over 2 million poor 
children currently left behind.

    We welcome our distinguished panelists today, and we look forward 
to learning about their plans to successfully implement the new Title 
I, the challenges they face, and how the Administration and Congress 
can help them overcome those challenges.

    STATEMENT OF BELLE S. WHEELAN, SECRETARY OF EDUCATION, 
                    COMMONWEALTH OF VIRGINIA

    Ms. Wheelan. Thank you, Senator Kennedy, and good morning.
    It is an honor to join you to discuss the Commonwealth of 
Virginia's implementation of the No Child Left Behind Act of 
2001.
    Academic success for all our students is one of Governor 
Mark Warner's top priorities, and the Commonwealth supports the 
goals of the No Child Left Behind Act. Virginia has had an 
accountability system in place for a number of years and is 
experiencing success in raising student achievement.
    We are particularly pleased with the success we are seeing 
in some of our most challenging schools. Over the months since 
its passage, we have worked continually to address its major 
requirements and to plan for the achievement of its goals.
    Four key issues are being addressed that I would like to 
discuss this morning. First is the provision of public school 
choice and supplemental services; second, assistance to Title I 
schools identified as needing improvement; third, development 
of ``highly-qualified'' teachers; and fourth, establishing and 
achieving adequate yearly progress in academics for schools and 
school divisions.
    Based on Virginia's Standards of Learning test administered 
during the 2000-2001 school year, 7 percent of Virginia's 1,800 
public schools currently are accredited with warning in one or 
more subjects. Virginia has 34 Title I schools in 9 of our 132 
school divisions identified as needing improvement under No 
Child Left Behind and thus required to implement public school 
choice this school year. Four of these schools are in three 
rural divisions. The rest are in urban divisions. They are all 
implementing plans to provide public school choice to parents.
    In July, the Virginia Board of Education adopted final 
guidelines for school divisions to follow in the provision of 
choice. These guidelines reflect the law's requirements and 
also require school divisions to follow and document best 
efforts procedures, including exploring scheduling and staffing 
alternatives for potential receiving schools and establishing 
cooperative agreements with neighboring school divisions.
    Letters, meetings, and radio and television announcements 
are being used to notify parents of public school choice 
options, and we will know by the end of the month how many 
parents have taken advantage of the option.
    There are challenges to providing public school choice, and 
capacity is among the most significant. In some of our urban 
divisions with schools in improvement, potential receiving 
schools are limited, or there are no qualified receiving 
schools at all. In these cases, surrounding school divisions 
have been contacted, but a lack of sufficient capacity has kept 
agreements of acceptance from being achieved. Moreover, in 
rural southwest Virginia, distances between schools within a 
division can be significant, and the time needed for 
transportation becomes a barrier to choice. Clearly, 
flexibility to offer supplemental services and other 
instructional alternatives is critical when public school 
choice cannot be provided.
    We will be monitoring the implementation of public school 
choice plans on a monthly basis and will ask for alternative 
strategies if a school division demonstrates that offering 
choice is not feasible. While we are making every effort to 
implement public school choice, we believe it most important to 
direct our efforts to ensuring that every school in Virginia is 
a school of choice. To that end, Governor Warner initiated the 
Partnership for Achieving Successful Schools, known as PASS, to 
assist low-performing schools.
    PASS is a statewide partnership with business and community 
leaders, State educators, and local school and government 
officials to boost student achievement in Virginia's lowest 
academically-performing schools. It will assist more than 100 
academically warned schools with a comprehensive plan to 
marshal community and business support. These schools will 
receive enhanced services from visiting academic review teams 
comprised of principals, teachers, and retired educators. Major 
components of the initiative are onsite assessments and 
support, hands-on training in strategies to address weaknesses, 
and peer partnerships between high-poverty and high-performing 
schools, staff and colleagues facing the same challenges.
    All the schools needing improvement are high-poverty. An 
important component of the PASS academic assistance teams is 
that the members come from schools with similar demographics 
that are achieving academic success. For example, in one of the 
partner middle schools in an urban area, the passing rate on 
the States's Standards of Learning Algebra I test rose from 20 
percent to 100 percent in 3 years. In a rural partner 
elementary school, the passing rate in the grade 3 mathematics 
test rose from 23 percent to 100 percent. The issue is not that 
children cannot learn. We simply need to apply the best 
strategies and resources to teach them.
    PASS schools are being provided assistance that goes beyond 
just dollars, but financial resources are critical. All PASS 
schools would benefit from the intense, onsite technical 
assistance teams that we currently are only able to provide to 
a few of our lowest-performing schools. Additional Federal 
assistance would help the Commonwealth expand this initiative 
to additional schools.
    We fully support the Act's requirement of having a 
``highly-qualified'' teacher in every classroom in a core 
academic rouse. In Virginia, a highly-qualified teacher is 
defined as one who is fully licensed by the State and teaching 
in his or her area of endorsement. This month, the Board of 
Education will initiate the review of regulatory and policy 
actions necessary to meet the goal of all teachers being 
highly-qualified by 2005-2006.
    A threshold challenge in achieving this is the need to 
identify with accuracy the number of highly-qualified teachers 
who are currently in the classrooms and the types of 
professional data being offered them. We are working to put in 
place State and local data collection and verification systems 
to accomplish this. However, it is a difficult process that 
will require additional resources and as much as a year to 
complete. However, we recognize that a realistic plan for 
raising the numbers of highly-qualified teachers is dependent 
upon hard data.
    Another challenge is the strategic use of resources 
available for the retention, recruitment, preparation, and 
professional development of teachers. Over the past year, we 
have been taking a comprehensive look at strategies to ensure 
the recruitment and retention of highly-qualified teachers. Not 
all solutions are related to money, but additional resources 
are key in order for us to provide professional development for 
teachers and principals, both new and existing.
    Receipt of Federal Title II funds for highly-qualified 
teachers and principals is also essential to these efforts. 
Equally important to school divisions is the flexibility to use 
these moneys in a variety of ways, from financial incentive for 
recruitment and placement to training in instructional methods, 
to professional development in leadership for principals.
    We have seen some of our most challenged schools succeed 
and achieve accreditation through principles that have built 
their own teams of highly-qualified teachers through joint 
planning and collaboration. Funding to help develop more 
principals with these skills will help ensure that we have 
highly-qualified teachers in each classroom.
    Federal financial support is especially critical in light 
of the current budget shortfalls we are facing at the State 
level, as well as the pressure on local resources associated 
with ensuring the best in education for our children.
    This fall, we will be reviewing the results of Virginia's 
Standards of Learning tests from the 2001-2002 school year and 
determining the starting point and the annual objectives for 
academic achievement in mathematics and English required under 
the adequate yearly progress provisions of the law. In November 
and December, we anticipate a public discussion of 
recommendations by the Board of Education, with formal adoption 
of adequate yearly progress objectives by January. As a State 
with an established accountability system for schools, we 
encourage flexibility in the implementation of this aspect of 
the Act as we work through the details.
    We fully support the law's requirement to measure academic 
achievement beyond school divisions and schools as a whole to 
groups of students who are disadvantaged, who are minorities, 
who have limited English proficiency, or who have disabilities. 
At the same time, there are particular challenges to ensuring 
that these students make academic objectives, and additional 
resources are needed to ensure that success. For example, 
through research and experience in some of our classrooms, we 
know that smaller class sizes in the early grades benefit 
disadvantaged and limited English-proficient students. However, 
reduction of class size requires more teachers and the 
construction of more classrooms.
    Moreover, while we support the Individuals with 
Disabilities Education Act's mandate that schools provide 
tailored educational programs to all children with 
disabilities, the lack of sufficient resources has made it 
difficult for schools to meet the needs of children with 
special physical, emotional, and developmental needs. As a 
result, local school districts have scrambled for decades to 
find ways to fund these specialized educational services. More 
often than not, resources are pulled from other instructional 
programs, and therefore, funding for all students is lessened 
in order to meet IDEA requirements.
    With State and local revenues declining, it is more 
critical than ever that the Federal Government fully fund IDEA 
to meet the 40 percent commitment that was established when it 
was passed in 1975. This will better enable States and local 
school divisions to meet the requirements of the No Child Left 
Behind legislation.
    I appreciate the opportunity to provide this information 
today. This Act provides the opportunity to further our ongoing 
efforts to raise the level of achievement for all students 
throughout the Commonwealth, and we look forward to a continued 
partnership with the Federal Government.
    The Chairman. That was very helpful. We'll have questions 
in just a few minutes.
    Dr. Moloney?

  STATEMENT OF WILLIAM J. MOLONEY, COMMISSIONER OF EDUCATION, 
          COLORADO DEPARTMENT OF EDUCATION, DENVER, CO

    Mr. Moloney. Mr. Chairman, good morning, and thank you for 
the opportunity to testify regarding the implementation of the 
most important piece of Federal education legislation to come 
forth in over a generation.
    I was in this city in 1965, present at the creation of the 
Elementary and Secondary Education Act. I well recall the 
shining idealism and buoyant optimism that attended that hour.
    For the last 27 years, in circumstances rural, suburban, 
urban, and statewide, I have been an administrator responsible 
for the implementation of that Act. In Massachusetts, Rhode 
Island, New York, Pennsylvania, Maryland, and now Colorado, I 
have sought to realize the great promise we saw 37 years ago.
    Compared to the several earlier reauthorizations of ESEA, 
what the Congress, by overwhelming vote, delivered to the 
American people in January is a thing dramatically and 
importantly different. Though obvious similarities of structure 
and purpose remain, H.R. 1 marks a striking change in the 
character and culture of Federal education legislation. Its 
unambiguous insistence on results marked a historic shift from 
a climate of process and entitlement to one of stark 
accountability for the well-being of all children.
    The very real concerns you are hearing about implementation 
are eloquent testimony to the startling sea change which you 
have ordained. We must be sensitive to those concerns. As I 
must be sensitive to the voices that come from Colorado's 178 
school districts, so must my 49 counterparts do the same in 
their States.
    What is vitally important is that we are responsive to 
those concerns in a manner that is appropriate but not in a 
fashion that can in any way undermine the firm purpose that you 
defined or the depth of commitment that we all must maintain if 
we are to make the most of the historic opportunity before us.
    Let me speak of Colorado. I believe we are among those 
States that seem to be coping fairly well with the task. This 
is not because of any innate cleverness on our part, but 
rather, over the last decade, Colorado has been pursuing 
education reform goals very much in tune with those goals 
defined in H.R. 1.
    In the attachments to my testimony, and I am sure in the 
questions that you will want to ask, you will find explication 
of how Colorado has been able to move forward regarding issues 
of choice, supplemental services, and adequate yearly progress. 
In all of these areas, as well as others, the door to these 
goals had been opened several years ago through State 
legislation and our efforts to fulfill it.
    In working with our districts, we find that many of them 
have been moving forward on these goals for several years, 
while others have not. while we properly commend the front 
runners, we also recognize an obligation to reach out the hand 
of encouragement and support to those who have further to go.
    In much the same way, the U.S. Department of Education is 
conducting 50 separate conversations with the States of our 
Union and has shown commendable probity and sensitivity in 
doing so.
    Most properly, they have maintained a strict insistence on 
those unambiguous goals that you have set down in the 
legislation, but at the same time, they have signaled their 
willingness to be flexible and to work closely with all States 
in regards to the means of implementation.
    Nowhere has this indispensable balance been better 
articulated than in the message of Secretary Rod Paige. 
Speaking with the moral clarity and conviction that a mission 
of ``leaving no child behind'' requires, he has clearly 
acknowledged the extraordinary dimensions of our task and 
signaled a deep commitment to working closely with us.
    We are proud that Colorado districts were among those 
recognized last week in a White House ceremony by President 
Bush and Members of Congress. I assure you that the list of 
schools and districts doing well with this in Colorado will 
grow steadily, as will be the case all across our great 
country.
    Nonetheless, we would be irresponsible if we did not 
recognize the great dangers that lie before us. We must know 
that this great task is no sure thing. We must honestly admit 
that there are large portions of our population, particularly 
those of poverty and color, who are frankly very skeptical that 
our performance will match our promises.
    A story illustrates that frustration that we see. Twenty 
years ago, while an assistant superintendent in Rochester, I 
was confronted by an angry mother at a parent forum discussing 
the chronic shortcomings of our city schools. Apparently, my 
platitudes about how the city was committed to systemic change 
and how real change takes real time caused her to lose it 
altogether. I shall never forget how she looked at me, and I am 
yet haunted by her understandably heated words: ``I can't wait 
for you to fix your system. My child needs help now.''
    America cannot afford such an ebbing of confidence in our 
public school system. This awareness, this apprehension, is 
what energizes us in Colorado. Two years ago, we established a 
Coalition to Close the Achievement Gap. Its co-chairs are the 
highest-ranking officials of the Democratic and Republican 
parties in our State. We took as our inspiration the words and 
example of Ron Edmonds, an African American educator who 
founded the effective school movement. This is what he said: 
``We can, whenever and wherever we choose to, successfully 
teach all children whose schooling is of interest to us. We 
already know more than we need to do that. Whether or not we do 
it must finally depend on how we feel about the fact that we 
have not so far.''
    With such inspiration, our coalition constructed a very 
brief statement of purpose which includes these words: ``If our 
American democracy is to ensure and prosper, it cannot be as a 
society that tolerates two systems of education--one of high 
expectations for the children of the fortunate and one of 
lesser standards for children of poverty and color. Perhaps for 
some, there is no crisis in education, but for our most 
vulnerable children, it is more than a crisis. It is a state of 
national emergency. We commit to this challenge not just 
because it is the right thing to do, but because it is nothing 
less than a moral imperative.''
    Finally, thank you for this law. You did not call it ``some 
children left behind'' or ``the usual children left behind'' 
but instead, ``no child left behind.''
    If you stay the course, so shall we. We are Americans. We 
can do this. We must do this.
    Thank you.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Moloney follows:]
  Prepared Statement of William J. Moloney, Colorado Commissioner of 
              Education, Colorado Department of Education
    Mr. Chairman, Members of the Committee, good morning and thank you 
for the opportunity to testify regarding the implementation of the most 
important piece of Federal education legislation to come forth in over 
a generation.
    I was in this city in 1965, present at the creation of the 
Elementary and Secondary Education Act (ESEA). I well recall the 
shining idealism and buoyant optimism that attended that hour.
    For the last 27 years in circumstances rural, suburban, urban, and 
statewide, I have been an administrator responsible for the 
implementation of that Act. In Massachusetts, Rhode Island, New York, 
Pennsylvania, Maryland, and now Colorado, I have sought to realize that 
great promise we saw 37 years ago.
    Compared to the several earlier reauthorizations of ESEA, what the 
Congress by overwhelming vote delivered to the American people in 
January is a thing dramatically and importantly different.
    Though obvious similarities of structure and purpose remain, H.R. 1 
marks a striking change in the character and culture of Federal 
education legislation. Its unambiguous insistence on results marked a 
historic shift from a climate of process and entitlement to one of 
stark accountability for the well being of all children.
    The very real concerns you are hearing about implementation are 
eloquent testimony to the startling sea change which you have ordained.
    We must be sensitive to those concerns. As I must be sensitive to 
the voices that come from Colorado's 178 school districts, so must my 
49 counterparts do the same in their states.
    What is vitally important is that we are responsive to those 
concerns in a manner that is appropriate but not in a fashion that can 
in any way undermine the firm purpose that you defined or the depth of 
commitment that we all must maintain if we are to make the most of the 
historic opportunity before us.
    Let me speak of Colorado.
    I believe that we are among those states that seem to be coping 
fairly well with the task which H.R. 1 sets before us.
    This is not because of any innate cleverness on our part but rather 
over the last decade Colorado has been pursuing education reform goals 
very much in tune with those goals defined by H.R. 1.
    Beginning with the Education Reform Act of 1993 signed into law by 
Governor Roy Romer and culminating in the School Accountability 
Legislation signed into law by Governor Bill Owens 8 years later, 
Colorado has been pushing on the envelope that is the status quo. As 
always happens the status quo pushes back but in the main our 
conversations have been reasonably civil and we have never lost sight 
of the fact that the ties that bind us together are infinitely more 
numerous and important than the issues that occasionally draw us apart.
    In the attachments to my testimony and I am sure in the questions 
that you will want to ask, you will find explication of how Colorado 
has been able to move forward regarding issues of choice, supplemental 
services and adequate yearly progress. In all of these areas as well as 
others, the door to these goals had been opened several years ago 
through State legislation and our efforts to fulfill it.
    In working with our 178 districts, we recognize that they are in 
178 different places. Many of them have been moving forward on these 
goals for several years while others have not. While we properly 
commend the front runners, we also recognize an obligation to reach out 
the hand of encouragement and support to those who have further to go.
    In much the same way, the U.S. Department of Education is 
conducting 50 separate conversations with the states of our union and 
has shown commendable probity and sensitivity in doing so.
    Most properly, they have maintained a strict insistence on those 
unambiguous goals that you have set down in the legislation but at the 
same time they have clearly signaled their willingness to be flexible 
and to work closely with all states as regards the means of 
implementation.
    No where has this indispensable balance been better articulated 
than in the message Secretary Rod Paige has brought to school systems 
all across the county. Speaking with the moral clarity and conviction 
that a mission of ``leaving no child behind'' requires, he has clearly 
acknowledged the extraordinary dimensions of our task and signaled a 
deep commitment to working closely with us as we seek to meet these 
challenges.
    We are very proud that Colorado districts were among those 
recognized last week in a White House ceremony by President Bush and 
Members of Congress. I assure you that the list of schools and 
districts doing well with this in Colorado will grow steadily as will 
be the case all across our great country.
    Nonetheless, we would be irresponsible if we did not recognize the 
great dangers that lie before us. We must know that this great task is 
no sure thing. We must honestly admit that there are large portions of 
our population, particularly those of poverty and color, who are 
frankly very skeptical that our performance will match our promises.
    A story illustrates that frustration which has grown over the 
years:

          Twenty years ago while assistant superintendent in Rochester, 
        I was confronted by an angry mother at a parent forum 
        discussing the chronic shortcomings of our city schools.
          Apparently my platitudes about how the city was committed to 
        systemic change and how real change takes real time caused her 
        to lose it altogether.
          I shall never forget how she looked at me, and I am yet 
        haunted by her understandably heated words: I can't wait for 
        you to fix your system. My child needs help now!''

    America can not afford such an ebbing of confidence in our public 
school system.
    This awareness, this apprehension is what energizes us in Colorado. 
Two and a half years ago we established a Coalition to Close the 
Achievement Gap. It's co-chairs are the highest ranking officials of 
the Democratic and Republican party in our state--Attorney General Ken 
Salazar and Governor Bill Owens respectively.
    We took as our inspiration the words and example of Ron Edmonds an 
African American educator who founded the Effective School Movement. 
This is what he said:

          ``We can, whenever and wherever we choose to, successfully 
        teach all children whose schooling is of interest to us.
          We already know more than we need to do that.
          Whether or not we do it must finally depend on how we feel 
        about the fact that we haven't so far.''

    With such inspiration, our Coalition constructed a very brief 
statement of purpose (see Appendix V), which includes these words:

          ``If our American democracy is to endure and prosper, it 
        cannot be as a society that tolerates two systems of 
        education--one of high expectation for the children of the 
        fortunate and one of lesser standards for children of poverty 
        and color. . . .
          Perhaps for some there is no crisis in education, but for our 
        most vulnerable children, it is more than a crisis: It is a 
        State of national emergency.
          We commit to this challenge, not just because it is the right 
        thing to do, but because it is nothing less than a moral 
        imperative.''

    Finally, thank you for this law. You did not call it ``some 
children left behind'' or ``the usual children left behind'' but 
instead ``no child left behind.''
    If you stay the course, so shall we. We are Americans. We can do 
this. We must do this.
    Thank you.

    [Attachments I-V follow:]
    [GRAPHIC] [TIFF OMITTED] 81758.001
    
    [GRAPHIC] [TIFF OMITTED] 81758.002
    
    [GRAPHIC] [TIFF OMITTED] 81758.003
    
    [GRAPHIC] [TIFF OMITTED] 81758.004
    
    [GRAPHIC] [TIFF OMITTED] 81758.005
    
    [GRAPHIC] [TIFF OMITTED] 81758.006
    
    [GRAPHIC] [TIFF OMITTED] 81758.007
    
    [GRAPHIC] [TIFF OMITTED] 81758.008
    
    [GRAPHIC] [TIFF OMITTED] 81758.009
    
    [GRAPHIC] [TIFF OMITTED] 81758.010
    
    [GRAPHIC] [TIFF OMITTED] 81758.011
    
    [GRAPHIC] [TIFF OMITTED] 81758.012
    
    [GRAPHIC] [TIFF OMITTED] 81758.013
    
    [GRAPHIC] [TIFF OMITTED] 81758.014
    
    [GRAPHIC] [TIFF OMITTED] 81758.015
    
    [GRAPHIC] [TIFF OMITTED] 81758.016
    
    [GRAPHIC] [TIFF OMITTED] 81758.017
    
    [GRAPHIC] [TIFF OMITTED] 81758.018
    
    [GRAPHIC] [TIFF OMITTED] 81758.019
    
    [GRAPHIC] [TIFF OMITTED] 81758.020
    
    [GRAPHIC] [TIFF OMITTED] 81758.021
    
    [GRAPHIC] [TIFF OMITTED] 81758.022
    
    [GRAPHIC] [TIFF OMITTED] 81758.023
    
    [GRAPHIC] [TIFF OMITTED] 81758.024
    
    [GRAPHIC] [TIFF OMITTED] 81758.025
    
    [GRAPHIC] [TIFF OMITTED] 81758.026
    
    [GRAPHIC] [TIFF OMITTED] 81758.027
    
    [GRAPHIC] [TIFF OMITTED] 81758.028
    
    [GRAPHIC] [TIFF OMITTED] 81758.029
    
    [GRAPHIC] [TIFF OMITTED] 81758.030
    
    [GRAPHIC] [TIFF OMITTED] 81758.031
    
    [GRAPHIC] [TIFF OMITTED] 81758.032
    
    [GRAPHIC] [TIFF OMITTED] 81758.033
    
    [GRAPHIC] [TIFF OMITTED] 81758.034
    
    [GRAPHIC] [TIFF OMITTED] 81758.035
    
    [GRAPHIC] [TIFF OMITTED] 81758.036
    
    [GRAPHIC] [TIFF OMITTED] 81758.037
    
    [GRAPHIC] [TIFF OMITTED] 81758.038
    
    [GRAPHIC] [TIFF OMITTED] 81758.039
    
    [GRAPHIC] [TIFF OMITTED] 81758.040
    
    [GRAPHIC] [TIFF OMITTED] 81758.041
    
    The Chairman. Mr. Casserly.

 STATEMENT OF MICHAEL CASSERLY, EXECUTIVE DIRECTOR, COUNCIL OF 
             THE GREAT CITY SCHOOLS, WASHINGTON, DC

    Mr. Casserly. Good morning, Mr. Chairman. Thank you very 
much for the opportunity to testify before this committee, and 
thank you for your leadership on this legislation and on 
education issues.
    As the chairman knows, the Council of the Great City 
Schools supported No Child Left Behind when it passed, and we 
support it today. We did so because the bill set the right 
goals, and it focused on the right kids.
    Mr. Chairman, I would like to make a number of quick points 
about the legislation and its implementation. First, our cities 
are committed to making this bill work. That commitment has 
been matched by efforts from day one. We began meeting with the 
cities and the city schools on December 10, the very day that 
the Congress was finalizing the conference report on H.R. 1, in 
order to begin the process of implementing the law. We followed 
that initial session with scores of meetings, briefings, 
conference calls, onsite technical assistance and exchanges, 
and the cities did all of this on their own since January in 
order to make this law work. Most of our cities began the 
process of implementing the law almost immediately after it was 
signed.
    One of the side effects of the bill has been better 
coordination. The legislation reaches into so many operations 
in our school systems that we have almost had to cooperate. The 
superintendent and senior staff have also been personally 
engaged in this process in ways that I have not seen in the 
five reauthorizations of ESEA that I have participated in.
    Second, people should not confuse frustration with the Act 
for a shortage of resolve. We often lack capacity; we do not 
lack will. We know that there is resistance to the Act in some 
quarters, but that resistance does not exist in the cities. We 
see the national focus on our children as an opportunity, not 
as an intrusion.
    Third, we have received good support from the Department of 
Education. The guidance that they provided us in the first 6 
months after passage of the Act was sufficient to get us 
started. We didn't wait for somebody to tell us what to do. The 
law was very clear about what the goals were and how it was 
that we were supposed to proceed.
    Fourth, the Council has begun to collect information from 
the cities on key issues that we know are of interest to this 
committee and to the public. We have preliminary information on 
24 cities, a summary of which is attached to my testimony.
    The choice option in particular has not been easy. Early 
information indicates that parental requests are being honored 
in the cities, usually with two or more options to parents. 
Some cities have open seats in nearly every school. Other 
cities are so overcrowded or have so many schools in school 
improvement that our degrees of freedom are limited. The result 
in these cities is that the number of transfers is not as high 
as many had originally expected, but we anticipate that this is 
likely to change in the years to come.
    Supplemental services are a new feature of the legislation, 
unlike the choice provisions. This process is moving slower 
than we would like. About 14 of the 20 States on which we have 
preliminary information have yet to issue lists of approved 
providers to our cities, and it has slowed the process somewhat 
of providing supplemental services beginning at the start of 
the school year.
    Fifth, most of our city schools are showing signs of 
improving student achievement, the ultimate purpose of this 
legislation, and about 40 percent of the cities are showing 
gains that outpace statewide averages. We expect that this pace 
will accelerate.
    We have also finished a major new analysis on what the 
fastest-improving cities have done to get gains systemwide. 
This report, ``Foundations for Success,'' indicates that their 
gains are not episodic. There are common practices similar to 
those called for in No Child Left Behind that undergird these 
cities' improvements. The results give us confidence that we 
are on the right track.
    Ultimately, of course, the Act will not be scored against 
how many requirements we meet or how many kids we bus from one 
school to another. The Act will be judged on how many 
children's achievement we raise and achieving the overall goal 
and vision of this legislation of leaving no child behind.
    Finally, we need help implementing the Act. We need better 
technical assistance from the States, and we need considerably 
more funding from the Administration and Congress targeted on 
need to ensure the bill's success.
    We pledge our best efforts to spend the money wisely and to 
implement the law faithfully.
    Thank you.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Casserly follows:]
Prepared Statement of Michael Casserly, Executive Director, Council of 
                         the Great City Schools
    Good morning, my name is Michael Casserly. I am the Executive 
Director of the Council of the Great City Schools. Thank you for the 
opportunity to testify before this Committee on the implementation of 
No Child Left Behind.
    The Council is a coalition of nearly 60 of the nation's largest 
urban public school systems. Our Board of Directors is composed of the 
Superintendent of Schools and one School Board member from each city, 
making the Council the only national organization comprised of both 
governing and administering personnel and the only one whose sole 
mission and purpose is urban.
    Our member urban school systems educate over 6.5 million students 
or about 14 percent of the nation's K-12 public school enrollment. Some 
63 percent of our students are eligible for a free lunch and about 21 
percent are English Language Learners. Approximately 80 percent of our 
students are African American, Hispanic or Asian American.
    The Council of the Great City Schools supported the passage of No 
Child Left Behind and continues to support the Act today. We backed the 
bill knowing that it had numerous challenges for urban schools, 
multiple requirements, and sometimes poorly calibrated provisions. The 
Council supported the legislation because it set the right goals and it 
focused on the right kids--those too often left behind. We also 
endorsed the legislation because Congress generously funded the Act in 
the first year and targeted the resources on communities that needed 
help the most.
    Mr. Chairman, I would like to make a number of brief points about 
the legislation and its implementation.
    First, our cities are committed to making this bill work. That 
commitment has been matched with effort since the day the bill was 
passed. Over half of the nation's major city school systems convened in 
Washington on December 10, 2001 for 4 days of meetings on what the bill 
meant and how we could begin the process of implementing it. We 
followed that initial session with literally scores of meetings, 
briefings, group conference calls, and onsite technical assistance 
sessions to turn the bill's promise into reality. We used these 
sessions to answer questions, interpret the law, provide guidance, 
share materials, and clarify intent. The cities did this on their own.
    Most cities responded by starting their planning process 
immediately. New York City, for example, assembled a cabinet-level task 
force on January 16 to initiate the implementation process. Greenboro 
(NC) began implementation meetings on February 22 with its board, 
superintendent, senior management, and all school principals.
    One of the unintended--and positive--side-effects of the 
legislation has been better coordination among staff. NCLB reached 
beyond Title I into curriculum, instruction, personnel, procurement, 
budget, student assignment, transportation, strategic planning, 
assessment, research and evaluation, data systems, and management. In 
nearly every Great City School system, the superintendent and his 
cabinet-level administrators have been engaged personally in 
implementing the Act at a level I have not seen in the five other ESEA 
reauthorizations in which I have participated.
    Second, Members of Congress and the press should not mistake 
frustration over implementing the Act with a lack of resolve. This bill 
is extremely complicated. We are having some problems with capacity and 
logistics, but not with will. We know that there is resistance to and 
hesitation about the Act among some groups, but we have not seen it 
from the cities. We see the national focus on educating our neediest 
children as an opportunity, not an intrusion.
    Third, we have received good support from the U.S. Department of 
Education from the time the bill was signed and throughout the summer. 
The Council and its cities felt that we had sufficient information to 
implement the Act and did not need to wait to be told what to do. The 
Act is quite detailed in its requirements and does not need extensive 
explication. The meetings and guidance provided by the Department in 
the first 6 months were sufficent to allow us to get started. We have 
also appreciated the flexibility that the Department has used in the 
regulatory process, not regulating in places where it was unnecessary.
    We recognize that many States have hesitated to provide school 
districts with much direction prior to the Department of Education's 
final regulations and nonregulatory guidance. We have not had the 
luxury of waiting. The first year's requirements and short timelines 
meant that we could not delay local planning and decisionmaking.
    Fourth, the Council has begun to collect information from its 
cities on key implementation features that we know are of interest to 
you and the public. We have preliminary information from 24 cities, the 
summary of which is attached to this testimony.
    The most pressing implementation issues for this new school year 
(2002-2003) involve public school choice, transportation, and 
supplemental services. One locality hardly looks like another at this 
point. There are some states, for instance, where no schools or nearly 
no schools are identified for ``school improvement'' because of how 
they defined and implemented the 1994 Act. No school districts in these 
states--including their biggest cities--will be implementing the 
required public school transfers or supplemental services. Other states 
have retroactively reduced the number of low-performing schools by 
redefining the criteria for adequate yearly progress under the 
preceding reauthorization. There will still be large numbers of low-
performing schools in these states, but not as many as were previously 
determined. Finally, most states appear to be successfully 
transitioning their identified schools from the 1994 Act to the new 
one.
    The public school transfer option has been in Federal law since the 
FY2000 appropriations bill, but reworking the student assignment plans 
in large urban school districts is not a simple undertaking. 
Nonetheless, early information from the 24 Great City School districts 
on which we have information indicate that parental choice requests are 
being honored. Many cities have worked to offer parents with two or 
more transfer options before the August 6 draft regulations proposed 
it. In a few cities, there were open seats available in nearly all the 
schools. In other cities, the combination of overcrowded schools and 
the number of schools in ``school improvement'' restricted the number 
of open seats to the hundreds. We know that the number of transfers are 
not as high as some had expected, but we anticipate that this may 
change.
    The most difficult aspect of this requirement, beyond its costs, is 
that the NCLB timelines are inconsistent with the open enrollment 
calendars in most school districts. Better coordination and integration 
of the NCLB provisions and the open enrollment procedures will likely 
produce a smoother and more coherent process next year.
    Supplemental services are an entirely new requirement for the 2002-
2003 school year. There are a variety of steps that States have to take 
prior to making supplemental services available at the local level. 
This process is moving slower than we would like. About 14 of 20 States 
on which we have preliminary information have not yet issued a list of 
approved providers to their cities. Some of our cities have begun to 
implement supplemental services on their own.
    Fifth, the nation's urban school systems are showing signs of 
improving student achievement-the ultimate purpose of the Act. We 
released a report earlier this summer, Beating the Odds II, showing 
that nearly all of the cities were showing achievement gains in reading 
and math. About 40 percent of the cities are also showing gains that 
outpace statewide improvements. We expect that the pace will pick up.
    We have also finished a major new analysis of how the nation's 
major urban school districts have improved student performance 
systemwide. This report, Foundations for Success, indicates that their 
gains are not episodic. (See attached summary.) Instead, there are 
common practices in these city school systems-similar to those called 
for in No Child Left Behind--that undergird their improvements. The 
results give us a great deal of confidence that we are on the right 
track.
    Ultimately, the Act should not be scored on how many requirements 
we complied with or how many kids we bused from one school to another. 
This Act and our implementation of it should be judged on how many 
children, particularly poor and minority children, are improving their 
academic achievement. We know that the nation's performance is not 
likely to increase until the performance of its urban schools improve.
    Finally, we need help implementing the Act. We will need far better 
technical assistance from the states, labs and centers than we have 
received to date. We will also need additional funding from the 
Administration and Congress, targeted on the greatest needs, to ensure 
the bill's success. The bill's implementation has only begun--the new 
accountability definitions and their consequences are not even in place 
yet. The number of schools implementing one intervention strategy or 
another will probably increase substantially in the next year or two.
    We need Congress to continue increasing funding for Title I for 
disadvantaged children, Title II for teacher quality, and Title III for 
English Language Learners. We pledge our best efforts to spend the 
money wisely and implement the law faithfully.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] 81758.042
    
             no child left behind--implementation snapshots
    Anchorage--The State of Alaska DOE will release a list of failing 
schools as determined by the State's AYP formula in January 2003. 
Anchorage currently has no schools identified for school improvement, 
but stands ready to work with schools that are identified by the State.
    Atlanta--Parents wishing to exercise their transfer option were 
asked to list the top three schools of their choice. The district 
negotiated personally with any parent whose highest preferences were 
filled to capacity and unavailable. The district had developed a plan 
to prioritize choice options to the lowest performing, low-income 
students, but has accommodated all transfer requests to date and has 
not utilized the priority system.
    Austin--Austin ISD has offered a choice between 2 higher-performing 
schools to students seeking transfer. In general, the choices offered 
were within geographic proximity to the original schools to limit the 
length of bus ride for students. The district has not needed to limit 
which students can receive transfers, and has accommodated all requests 
to date.
    Birmingham--Parents were given the opportunity to identify a 1st, 
2nd, and 3rd choice for school transfers, which were in clusters of 
schools within transportation zones. The State has not yet released a 
list of approved vendors for supplemental services, and the district is 
waiting to notify the parents of eligible students that these services 
are available.
    Boston--The school district has always offered a public school 
choice plan based on capacity, and will continue to do so. This choice 
will be offered to all students, and is not dependent on a school being 
low-performing: The State has yet to issue a list of supplemental 
service providers.
    Broward County--No schools in Florida have been identified for 
school improvement. In assessing the quality of paraprofessionals, 
Broward County offers a state-approved ``Teacher Assisting'' course at 
district technical centers. The course provides successful participants 
with a certificate after meeting high levels of study, performance, and 
examination. The district is also using Title I funds for the Broward 
Teacher Corps, which includes a segment that provides paraprofessionals 
with 60 college credit hours over 2 years. The district will allow 
paraprofessional candidates to use the ``Teacher Assisting'' course, 
the Broward Teacher Corps, or specific assessment results to 
demonstrate they are qualified.
    Clark County--All students requesting a transfer from schools 
identified for improvement will be accommodated in Clark County. The 
district sent a letter to parents of all eligible children and held 
meetings at school locations to explain the choice provision. Current 
students were given a 3-month window to exercise the transfer option, 
and all new students will also be given an opportunity to choose a 
higher-performing school.
    Cleveland--CMSD based the transfer system on geographic location 
and the number of seats available in higher-performing schools. 
Information on the transfer system is provided on the district website, 
and a brochure was also sent to parents. The brochure also included 
information on the availability of supplemental services, and the 
district will send a letter to parents regarding those options once a 
provider list is released by the State. The district already provides 
supplemental services through Sylvan Learning Centers, Read Right, and 
the HOSTS tutoring program, among others.
    Columbus--The district will offer transfers not only to students in 
schools identified for improvement, but also to students in schools 
identified by the district as ``prevention schools''. Prevention 
schools were originally included on the state's school improvement 
list, but were removed once the qualifying criteria were changed. The 
district is planning on providing afterschool tutoring programs for 
elementary reading and mathematics, and is also considering proficiency 
academies and summer school programs. The State has yet to issue a list 
of supplemental service providers.
    Denver--In January 2002, the district provided the parents of 
22,000 students in Title I school improvement or corrective action 
locations with written notification of the status of their child's 
school, as well as information about the DPS Choice process. The notice 
emphasized the right of parents to transfer their students to another 
school, in particular ones that were not identified for school 
improvement or corrective action. The district also promoted extensive 
coverage of Choice in local media, and parked a school bus with eye-
catching Choice graphics at various high-traffic sites throughout the 
district. To date, over 3,000 students from low-performing schools have 
transferred to schools that are not in school improvement. Seventy-five 
out of 85 elementary schools were able to accept 100 percent of the 
students that applied to them in the First Round of Choice; 18 out of 
21 middle schools were able to accept 100 percent o of applying 
students in the First Round. The district is also looking at ways it 
can improve the Choice program for the 2003-04 school year, including 
an earlier start date, revising the letter to parents, and broadening 
the Choice options of schools for students.
    District of Columbia--Parents were notified of the transfer option 
over the summer, through letters and information on the district 
website. Receiving schools that students could transfer to were chosen 
on the basis of geographic proximity and academic achievement. Parents 
were given a cluster of 2 to 5 choices depending on their address, and 
most students received four choices. The district has also distributed 
information to parents regarding the availability of supplemental 
services, and additional information will be sent to homes when a 
provider list is finalized.
    Indianapolis--The district sent a letter to parents at the end of 
the 2001-02 school year and also held meetings explaining the transfer 
options that would be available for the upcoming school year. Current 
parents were given a month over the summer to exercise this option, and 
new students were given the chance to transfer until the start of the 
school year. Students at each identified school were given two options 
of higher-performing schools to choose from.
    Long Beach--The district has 12 schools eligible for public school 
choice under No Child Left Behind, and informed parents of the transfer 
options in a letter in July. Parents had until September to exercise 
their choice option, and students were offered transfers within the 
district's transportation zones.
    Nashville--Current parents were informed of the new choice 
provisions in late May and had until early August to exercise their 
child's option, while parents of new students had until just before the 
start of school. Brochures were sent out in multiple languages, schools 
held parent meetings to discuss the transfer option, and the district 
promoted the new, choices in local newspaper, television, and other 
media. Parents of eligible students were given a choice of schools 
within their geographical cluster, and the district also considered 
``write-in'' choices if a parent's preference was not listed.
    Norfolk--Despite having no schools identified for improvement, the 
district will continue to provide individualized after-school tutoring 
among its extended day offerings. Computer-assisted lessons are one 
successful approach the district has employed in Norfolk's after-school 
programs.
    Philadelphia--In addition to the existing state-approved school 
choice program, the district has begun a No Child Left Behind choice 
program, which targets the highest-poverty schools in the district's 
ten Academic Areas. Eighty-two higher performing schools were 
identified to receive transferring students, and parents were informed 
of their options in a letter this summer. The district also sent a 
letter to parents regarding the availability of supplemental services, 
which will be offered by state-approved vendors in district schools. 
The supplemental services program will begin as soon as the State 
issues a list of approved providers.
    Saint Louis--The district sent letters to parents at the beginning 
of August explaining the transfer option, and outlined the choice of 
available high-performing schools. The schools accepting transferring 
students are high performing, and are not likely to be identified 
within the next few years. The district currently has 56 higher-
performing schools that are at full capacity, and are unable to accept 
additional students for the 2002-03 school year.
    Saint Paul--School choice under Title I is being addressed through 
the district's usual school choice system. All parents annually are 
given the opportunity to sign up for the school(s) of their choice from 
a wide array of magnet and citywide schools with a variety of 
curriculum choices. Of the 451 students from low-performing schools who 
have exercised their transfer option to date, 448 students received 
their first choice and 3 students received their second choice. The 
district will also operate Area Learning Centers (ALC) as part of the 
statewide after-school initiative. ALC targets at-risk K-6 graders in 
extended day sessions at the school site, and has an academic focus on 
language arts and mathematics. The centers are run by Minnesota-
licensed teachers assisted by paraprofessionals, and students are also 
given the opportunity to complete homework, read books, and work in 
computer labs. All students participating in these extended day 
programs are given a free snack, and transportation is provided to 
eligible students living outside of the walking distance to school.
    San Diego--Parents may exercise their transfer option through early 
October, and the district has added additional bus routes and schools 
to their existing enrollment system specifically for students 
transferring from low-performing schools. The district is a state-
approved supplemental service provider, and will offer programs in 
reading and mathematics for elementary and middle school students, as 
well as after-school preparation for the California High School Exit 
Exam for high school students. These programs have an average class 
size of 10:1, and are taught by teachers with enhanced instructional 
materials and specific professional development opportunities. The 
State identified only three other supplemental service providers in the 
geographic area, one of which has already indicated that it wil l not 
accept any additional students.
    Seattle--The district has been a leader in school choice options 
for families and these opportunities will continue with No Child Left 
Behind. Parents can request any school in the district, and 90 percent 
of on-time applicants received their first or second choice last year. 
Parents are advised where they can find more information about each 
school, including a summary of school activities and data on 
demographics, attendance, and test scores. All schools offer tours to 
interested parents and many schedule open houses as well. Parents can 
visit one of five enrollment centers around the city for more 
information, including a Bilingual Family Center with a multilingual 
staff and specific information for students whose first language is not 
English.

                                                     Title I.--Schools and School Improvement Status
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                         No. of      No. of      No. of
                                                          Total      Title I     Title I    Non-Title  schools in  schools in  schools in      No. of
                                                         schools   schoolwide   targeted    I schools  sch. impr.- sch. impr.- corrective    schools in
                                                                                                            1           2        action    restructuring
--------------------------------------------------------------------------------------------------------------------------------------------------------
Anchorage............................................          84          13           5          66           0           0           0
Atlanta..............................................         104          87           2          15           2          15           7             0
Austin...............................................         107          60           0          47           2           2           0             0
Birmingham...........................................          79          62           3          14           3           2           0             0
Boston*..............................................         131         125           0           6          66           0           0             0
Broward County.......................................         224          83           0         141           0           0           0             0
Clark County.........................................         277          40           6         231           2           1           0             0
Cleveland............................................         123          97          13          13           9          12           5             2
Columbus.............................................         140         114           0          26          18          24          20             0
Denver**.............................................         137          32          33          72          41           0           3             0
District of Columbia.................................         149         149           0           0          15           0           0             0
Fort Worth...........................................         114          65           0          49           0           0           0             0
Guilford County......................................         101          32          11          58           0           0           0             0
Hillsborough County..................................         186         103           0          83           4           0           0             0
Indianapolis.........................................          80          18          37          25           5           5           0             0
Long Beach...........................................          85          60           8          17           3           0           0
Miami-Dade...........................................         333         172           2         159           0           0           0
Nashville............................................         117          54           0          63           4           0           0             0
Norfolk..............................................          55          18           0          37           0           0           0             0
Philadelphia.........................................         265         225          40           0           0           0         178             0
Saint Louis..........................................          95          90           3           2          17           0           0
Saint Paul...........................................          67          44           7          16           2          16           0             0
San Diego............................................         165          96           0          69          11          27           2             0
Seattle..............................................         110          37           0          73           6           0           0             0
                                                      --------------------------------------------------------------------------------------------------
  TOTAL..............................................       3,328       1,876         170       1,282         210         113         215             2
--------------------------------------------------------------------------------------------------------------------------------------------------------
* Massachusetts DOE will release a revised list of schools identified for improvement in November 2002.
** All of Denver's Title I targeted programs will become schoolwide in 2002-2003.

   Foundations for Success--Case Studies of How Urban School Systems 
              Improve Student Achievement--Report Abstract
                         i. goals of the study
    The movement to reform education in the U.S. is fundamentally about 
improving urban public schools. Every debate about standards, testing, 
governance, busing, vouchers, charter schools, social promotions, class 
sizes, and accountability are discussions--at their core--about public 
education in the cities.
    These discussions are worth having, for nowhere does the national 
resolve to strengthen its educational system face a tougher test than 
in our inner cities. There, every problem is more pronounced; every 
solution harder to implement. The burden of not solving these problems 
or implementing successful improvement strategies has fallen 
disproportionately on the African American and Latino children, 
children with disabilities and those learning English who live in the 
poverty-stricken cores of America's major cities.
    The Nation cannot afford to ignore these communities, for urban 
schools enroll a large share of America's children. While there are 
16,850 public school districts in the United States, one hundred of 
those districts serve approximately 23 percent of the nation's 
students. These districts, many of which are located in urban areas, 
also serve 40 percent of the country's minority students and 30 percent 
of the economically disadvantaged students.
    This report and the longer-term project of which it is a part focus 
on the potential role of the school district as an initiator and 
sustainer of academic improvement. While there has been much research 
on what makes an effective school, there is relatively little, on what 
makes an effective district. In fact, many see large urban school 
districts as a source of problems rather than solutions. But for school 
improvement to be widespread and sustained, and for our Nation to 
reduce racial differences in academic achievement, large urban 
districts must play a key role.
    Over the past several years, the Council of the Great City Schools 
has embarked on an effort to understand student achievement patterns in 
large urban school districts and to develop ideas for how more 
districts can raise achievement. Previous Council research has shown 
that academic achievement is improving in urban schools and has 
identified a set of urban school districts that are making the fastest 
improvements, both overall and in narrowing differences among racial 
groups.
    This report extends the existing research by examining the 
experiences of three large urban school districts (and a portion of a 
fourth) that have raised academic performance for their district as a 
whole, while also reducing racial differences in achievement. It 
attempts to use the experiences of these school districts to address 
the following questions:
    1. What was the historical, administrative, and programmatic 
context within which student achievement improved in these districts?
    2. How can we characterize the nature of the changes in student 
achievement, and what were the sources of these changes (specific 
schools, subgroups of student, etc.)?
    3. What district-level strategies were used to improve student 
achievement and reduce racial disparities?
    4. What was the connection between policies, practices, and 
strategies at the district level and actual changes in teaching and 
learning in the classroom?
    The Council and the Manpower Demonstration Research Corporation 
(MDRC) intend to use the answers to these questions to identify 
hypotheses for further study of promising practices at the district 
level and to develop recommendations for technical assistance in 
support of reform efforts in large urban school districts. Further, the 
Council and MDRC hope to encourage a line of discourse and research 
regarding the role of large urban districts in school reform.
How Were the Case Study Districts Selected?
    The Council's Achievement Gap Task Force, together with its 
Research Advisory Group (which is made up of nationally known 
researchers and practitioners), identified three case study districts. 
These districts: Houston Independent School District; Charlotte-
Mecklenburg Schools; Sacramento City Unified School District; and a 
portion of a fourth (the Chancellor's District in New York City) were 
selected because they met the following criteria:

    <bullet> They demonstrated a trend of improved overall student 
achievement over at least 3 years.
    <bullet> They demonstrated a trend of narrowing differences between 
white and minority students.
    <bullet> They showed consistent improvement over at least a 3-year 
period and they were improving more rapidly than their respective 
states.
    <bullet> They were a set of geographically representative urban 
school districts.
What was the Methodology for the Study?
    This research is based on (1) retrospective case studies of these 
districts and (2) comparisons of their experiences with other districts 
that have not yet seen similar improvements. The case study districts 
are used to develop hypotheses about the reasons for improvements in 
achievement. The comparison districts provide a partial test of the 
hypotheses emerging from the analysis of the case study districts. 
While the comparison districts cannot provide definitive support for 
the hypotheses developed in the case study districts, they were used to 
discard possible hypotheses and to better understand what is unusual 
about the case study districts.
      ii. the educational challenges facing urban school districts
    The large urban school districts examined in this report face a 
common set of challenges that exist above the level of individual 
schools. The primary challenges include:
Unsatisfactory Academic Achievement
    The reform efforts were driven by the concern that schools were 
failing their students--especially low-income and minority students--
and that improving this pattern was the district's most important 
priority. In both the case study districts and the comparison 
districts, achievement for minority and disadvantaged students was 
noticeably below that for white and more affluent students. And the 
differences by race and economic status increased as students grew 
older.
Political Conflict
    In each of the three case study districts, there had been a period 
when the school board was divided into factions, and much of its 
activity revolved around disputes over resources and influence. The 
school board's ``zero sum'' arguments often dealt with salaries, hiring 
and firing decisions, student assignment procedures, and school 
construction and closings. Factional disputes between department heads, 
the board versus the superintendent, superintendents versus principals, 
or principals versus teachers were common and often became serious and 
personal. At times, infighting was intense because the district was a 
major employer (especially for groups that historically faced 
discrimination in the labor market) and because participation in 
educational politics was a stepping-stone for higher political office. 
As a result, the leadership in these districts was often not focused 
primarily on improving student achievement.
Inexperienced Teaching Staff
    Each of the case study districts acknowledged that they needed to 
deal with the fact that much of their teaching staff was relatively 
inexperienced and suffered from high teacher turnover, especially once 
teachers gained some initial experience. In part this was due to the 
challenge of recruiting and retaining teachers when school districts in 
the surrounding areas could offer teachers higher salaries, better 
facilities, a less challenged student body, and were seen as less 
stressful working environments. These difficulties were compounded by 
the limited training that the districts offered new teachers before 
they entered the classroom.
Low Expectations and a Lack of Demanding Curriculum
    In each of the districts, staff felt overwhelmed at times by the 
great challenges that many of their lower-income and minority students 
faced. This led some staff to reduce expectations for achievement in 
the lower grades and justify the students' lack of progress. In the 
higher grades, where instruction and expectations can differ starkly 
across groups of students, low-income and minority students were under-
represented in college preparatory and advanced placement classes. In 
some schools that served primarily low-income and minority students, 
the more demanding classes were offered infrequently or not at all.
Lack of Instructional Coherence
    The study found that all districts suffered from having different 
educational initiatives and curricula in individual schools. Likewise, 
the districts discovered a lack of alignment between instruction and 
the State standards. Each of the districts had recently experimented 
with site-based management, which had produced a variety of different 
educational strategies within each district. This often proved 
confusing to school-level staff and difficult for the district to 
support. Additionally, the professional development strategy was 
fragmented; professional development was not focused on a consistent 
educational strategy (either of instruction or curricula) and often 
consisted of one-shot workshops on a series of topics.
High Student Mobility
    Previous research suggests that moves between schools can undermine 
student learning. This problem may be exacerbated by variations in 
instructional approach. District leaders believed that the high rate at 
which students moved from one school to another within the districts 
disturbed the continuity of instruction students received in subjects 
such as reading and math. Some staff also noticed higher rates of 
mobility in the low-income student population and considered that 
another strike against their ability to achieve.
Unsatisfactory Business Operations
    One of the most frustrating aspects of daily life for teachers and 
principals in ailing urban schools is the difficulty they face in 
getting the basic necessities to operate a school. All too often, 
school facilities were poorly maintained or dangerous, students were 
taught by substitutes for part or even all of the school year, and 
teachers lacked an adequate supply of books and materials. At times 
district business operations were managed by staff who had been 
promoted because of tenure in the district, rather than their 
particular qualifications. Administrative systems were outdated and 
cumbersome, and new expertise was needed to bring them up to speed. In 
some of the districts there was the perception--and too often the 
reality--that direct political influence by school board members and 
other elected officials affected decisions such as hiring, promotions 
and assignments, and contracts for supplies or services. Finally, 
school level staff viewed the central office as unresponsive, 
bureaucratic, and micromanaging, rather than working to find real 
solutions.
Three Key Contextual Factors That Affect Change

      1. The Uncertainty of Funding

    None of the case study districts were in desperate financial 
circumstances, but each of the districts faced budget pressures, in 
some years had to cut back spending, and had lost bond elections to 
raise funds for capital improvements.

      2. State Focus on Accountability

    Evolving State accountability systems with strong academic 
achievement goals helped focus local attention on student achievement. 
Thus, each of the three case study districts operated within a broader 
policy context that emphasized student academic achievement, concrete 
goals for improvement, and incentives and consequences for performance.

      3. Local Politics and Power Relations

    The process of decisionmaking in the case study districts was 
complex and had to accommodate many different interests. However, there 
were important differences from older, central city districts where 
interest group politics are more volatile and where the vast majority, 
of residents and the student body are from a single racial group.
                           iii. key findings
The Need to Establish Preconditions for Reform
    The individual histories of these fasterimproving urban school 
districts suggest that political and organizational stability over a 
prolonged period and consensus on educational reform strategies are 
necessary prerequisites to meaningful change. Such a foundation 
includes:

    <bullet> A new role for the school board whereby a new board 
majority (or other governing unit) focuses on policy level decisions 
that support improved student achievement rather than on the day-to-day 
operations of the district.
    <bullet> A shared vision between the chief executive of the school 
district and the school board regarding the goals and strategies for 
reform.
    <bullet> A capacity to diagnose instructional problems that the 
school system could solve.
    <bullet> An ability to flesh out the leadership's vision for reform 
and sell it to city and district stakeholders.
    <bullet> A focus on revamping district operations to serve and 
support the schools.
    <bullet> A matching of new resources to support the vision for 
reform.
What Were the Districts' Strategies for Success?
    The case study districts' approaches to reform shared the following 
elements in common:

    <bullet> They focused on student achievement and specific 
achievement goals, on a set schedule with defined consequences; aligned 
curricula with State standards; and helped translate these standards 
into instructional practice.
    <bullet> They created concrete accountability systems that went 
beyond what the states had established in order to hold district 
leadership and building-level staff personally responsible for 
producing results.
    <bullet> They focused on the lowest-performing schools. Some 
districts provided additional resources and attempted to improve the 
stock of teachers and administrators at their lowest-performing 
schools.
    <bullet> They adopted or developed districtwide curricula and 
instructional approaches rather than allowing each school to devise 
their own strategies.
    <bullet> They supported these districtwide strategies at the 
central office through professional development and support for 
consistent implementation throughout the district.
    <bullet> They drove reforms into the classroom by defining a role 
for the central office that entailed guiding, supporting, and improving 
instruction at the building level.
    <bullet> They committed themselves to data-driven decisionmaking 
and instruction. They gave early and ongoing assessment data to 
teachers and principals as well as trained and supported them as the 
data were used to diagnose teacher and student weaknesses and make 
improvements.
    <bullet> They started their reforms at the elementary grade levels 
instead of trying to fix everything at once.
    <bullet> They provided intensive instruction in reading and math to 
middle and high school students, even if it came at the expense of 
other subjects.
How Did the Comparison Districts Fare in Their Efforts?
    While the comparison districts claimed to be doing similar things, 
there were several important differences that prevented them from 
achieving similar gains:

    <bullet> They lacked a clear consensus among key stakeholders about 
district priorities or an overall strategy for reform.
    <bullet> They lacked specific, clear standards, achievement goals, 
timelines and consequences.
    <bullet> The district's central office took little or no 
responsibility for improving instruction or creating a cohesive 
instructional strategy throughout the district.
    <bullet> The policies and practices of the central office were not 
strongly connected to intended changes in teaching and learning in the 
classrooms.
    <bullet> The districts gave schools multiple and conflicting 
curricula and instructional expectations, which they were left to 
decipher on their own.
What Were the Trends in Academic Achievement?
    <bullet> The academic achievement data collected as part of this 
study suggest that the districts in this study had indeed made progress 
in academic achievement and that this progress had begun to reduce 
racial disparities in student performance on standardized tests. 
Progress in each of the case study districts, moreover, generally 
outpaced statewide gains.
    <bullet> This was particularly the case for the low end of the 
achievement distribution. The patterns of change and the magnitude of 
changes do not suggest that they were driven by small numbers of 
schools or students or were the sole result of State ``effects.''
    <bullet> Progress was greatest at the elementary school level, and 
there was evidence of some improvement in achievement trends at the 
middle school level. However, these school districts are not yet 
generally making progress on overall achievement and racial differences 
in high schools.
                    iv. implications for next steps
    In many ways, these findings represent good practices for any type 
of organization: set priorities and specific goals; identify 
appropriate roles for parts of the organization; select or develop the 
techniques needed to move toward the goals given the local context, 
staff, and student body; collect and use information to track progress, 
identify needed refinements and areas of special needs; and stay on 
course long enough for the effort to pay off. There are few surprises 
here, just hard work.
    But taking these common-sensical steps in the complex world of 
urban school districts with many diverse stakeholders, frequent 
leadership changes, competing priorities, limited resources, and 
difficult-to-manage bureaucracies is not a straightforward process. A 
key contribution of this study, therefore, is to suggest some 
priorities for urban school districts and to provide concrete examples 
of how several urban school districts successfully, focused on student 
achievement and what they saw as necessary steps toward improvement.
    This study is exploratory in nature and is not designed to yield 
definitive conclusions regarding the factors that drove achievement in 
these particular districts. However, the evidence gathered in these 
districts does support a few tentative conclusions that further 
technical assistance and research efforts should endeavor to test. 
These hypotheses are interrelated but can be loosely categorized into 
several topic areas: the foundations for reform; instructional 
coherence; and data-driven decisionmaking. In particular, the evidence 
in this report suggests the following hypotheses regarding the role of 
the district in urban school reform.
Building the Foundations for Reform
    <bullet> The nature of the local political and public discourse 
about schools is important and can be changed. But first, school board, 
community leaders, and superintendents must agree that improved student 
achievement is their top priority.
    <bullet> A sustained focus on enacting effective reforms is 
possible when a common vision is developed that is supported by a 
stable majority of the board, and when the school community and general 
public are engaged in providing feedback and support.
Developing Instructional Coherence
    <bullet> The central school district office can play a key role in 
setting district-wide goals, standards for learning, and instructional 
objectives; creating a consistency of instruction in every school; and 
supporting the improvement of instruction and the effective delivery of 
curricula throughout the district.
    <bullet> Urban school districts face specific challenges. Providing 
a systematic, uniform, and clearly defined approach to elementary 
instruction may improve student learning and have an even larger 
positive effect on the disadvantaged and minority children served by 
these districts.
    <bullet> Giving teachers extensive professional development to 
ensure the delivery of a specific curriculum may be more effective at 
improving instruction and raising student achievement than distributing 
professional development resources widely across schools or educational 
initiatives.
    <bullet> Requiring, encouraging, or providing incentives for highly 
skilled administrators and teachers to transfer to low-performing 
schools may improve the stock of staff at those schools and help 
disadvantaged and minority children succeed.
Data Driven Decision Making
    <bullet> Teachers may be able to use achievement data as a tool to 
help them improve instructional practice, diagnose students' specific 
instructional needs, and increase student learning/achievement. 
However, teachers and principals need such data given to them at 
regular intervals from the start of the academic year, along with 
training in the use of these data to diagnose areas of weakness.
    <bullet> Students may be assigned to classroom situations that are 
more beneficial to them if administrators carefully use assessment data 
in placement decisions to identify students with the potential to do 
more demanding work. This practice may also increase the odds that 
disadvantaged and minority students will be able to qualify for high-
level classes.

    The experiences of these districts, and the perspectives of the 
leaders in these districts, suggest one final hypothesis: doing all of 
these things together can have a much larger impact on the performance 
of a district than doing any one of them alone. Indeed, unless a 
district tries to reform their system as a whole, trying any one of 
these approaches may be a wasted effort.
    In the end, the findings in this study underscore the importance of 
the district as a unit of analysis for research and as a level of 
intervention for reform. It is important next to refine the hypotheses 
regarding promising practices at the district level and establish a 
strong empirical basis for understanding the relationship between these 
educational improvement strategies and changes in teaching, learning, 
and student achievement in large urban school systems. The findings 
also underscore the importance in testing these strategies in diverse 
settings as possible, so as to establish their applicability to the 
systems where reform is most needed.

    The Chairman. Wanda Gaddis, welcome.

STATEMENT OF WANDA GADDIS, PARENT, WASHINGTON, DC, ON BEHALF OF 
                        THE NATIONAL PTA

    Ms. Gaddis. Good morning, Chairman Kennedy and members of 
the committee.
    My name is Wanda Gaddis. I am a parent, and my daughter 
Ashley is a first-grader at Bruce-Monroe Elementary School in 
the District of Columbia.
    I am here today representing National PTA. Parents are key 
players in the education debate, so I thank you for the 
opportunity to express my views.
    First, I would like to commend you, Mr. Chairman, as well 
as Senator Reed and other members of this committee, for your 
dedication to school improvement and parent involvement. You 
led the way to strengthening the parent involvement provisions 
in the law, and we thank you for your commitment.
    PTA members across the country celebrated because they felt 
Congress sent a signal that parent involvement is an important 
reform tool.
    I also want to thank you for your efforts to secure a 
sustained and long-term commitment to increased Federal funding 
for education. Your work is critical to ensure that all 
children have access to excellent public schools, and we pledge 
to continue working with you on these issues.
    My statement can be summarized with three simple facts--
effectively involving parents and families in the education of 
their children has greater potential impact than almost any 
other education reform. Excellent schools share common elements 
which include qualified teachers, a challenging curriculum, 
small class sizes, up-to-date materials and equipment, 
appropriate education support programs, strong leadership, and 
meaningful parent involvement. The components of effective 
schools cost money, and low-achieving schools do not have 
adequate resources to implement the strategies they need.
    If you ask parents what they want in education, they will 
respond that they want every school to be an excellent school. 
Parents want all children to have a high-quality education. 
They want to see funding disparities among schools and programs 
eliminated. Parents want qualified teachers, small classes, and 
safe and modern schools for their children. They also want 
their children to have up-to-date textbooks and technology, and 
before- and after-school learning opportunities in their 
schools.
    Title I parents want parent involvement provisions 
implemented to help students achieve. So far, most of the 
attention has been on parental choice, but choice is not 
parental involvement. Parents want to keep their children in 
their own neighborhoods so they can be part of their school 
communities. Parents want to be partners with their schools in 
their children's education. Most of all, they want a place at 
the decisionmaking table.
    Let me tell you about how the Telling Stories Project 
brought me to the education table with my daughter Ashley. The 
Telling Stories Project is based on the belief that all 
parents, regardless of their background, can promote literacy 
at home, in the school, and in the community.
    The project connects parents, educators, and communities. 
Through the Telling Stories Project, parents like myself work 
collaboratively with other parents from different backgrounds 
to create a school environment that values all cultures and 
family traditions, play more active roles in their children's 
classrooms and in the decisionmaking process of the school.
    Like many other models of successful parents involvement, 
Telling Stories began with relationship-building. National PTA 
believes that all schools can have this type of effective 
parent involvement if States and schools make it a priority. 
National PTA believes that Congress and the Department of 
Education can help create strong partnerships and recommend 
that parent involvement policies be evaluated as part of a 
school's overall measures of success; more technical assistance 
be provided to show schools how to set up effective parent 
involvement practices; professional development programs to 
train teachers in how to build relationships with parents.
    Increasing financial resources must be a priority at the 
Federal level, too. In fact, we believe that the single biggest 
problems that States and schools face in implementing Title I 
is a lack of funding. Title I only fully serves about one-third 
of all children who are eligible. We cannot expect 100 percent 
results when we only invest 35 percent.
    Schools already face enormous challenges in educating 
children. The new law creates additional demands on States and 
schools, and many States are cutting their education budgets.
    The reality is that States and local communities cannot do 
it alone. They need help from the Federal Government. National 
PTA believes that Congress should provide appropriations to 
meet the goals of ESEA, particularly in economically 
disadvantaged areas, and to prepare the future work force to 
meet the Nation's economic and defense needs.
    Public education advocates are often criticized when they 
ask for more money. However, not one Federal education program 
has ever been funded to the level that would provide services 
to all who are eligible. Is money the only solution to problems 
in education? No. But we cannot assure that all teachers are 
highly-qualified, or implement parent involvement strategies as 
required in Title I, not to mention reduce class size, build 
and repair school facilities, provide needed support services, 
or purchase equipment and materials for free.
    Thank you for the opportunity to present our views today. I 
will be happy to answer any questions you have.
    Thank you.
    [The prepared statement of Ms. Gaddis follows:]
 Prepared Statement of Wanda Gaddis, Parent, Washington, DC, on Behalf 
                          of the National PTA
    Good morning Chairman. Kennedy, and members of the Committee. My 
name is Wanda Gaddis. I am a parent, and my daughter, Ashley, is a 
first-grader at Bruce-Monroe Elementary School in the District of 
Columbia. I am here today representing National PTA, the country's 
largest child advocacy organization, which has 6.2 million members. 
Parents are key stakeholders in the education debate, so I thank you 
for the opportunity to express National PTA's perspective on 
implementing Title I, with our particular comments on what parents 
believe will help their children achieve high standards.
    First, I would like to commend you, Mr. Chairman, as well as 
Senator Reed and other members of this committee, for your commitment 
to school improvement and to parent involvement. You led the way to 
strengthening the parent involvement provisions in the current law, and 
we thank you for the commitment you demonstrated on this issue 
throughout reauthorization of the Elementary and Secondary Education 
Act (ESEA). PTA members across the country celebrated the improved 
parent involvement provisions because they felt Congress sent a signal 
to states and school districts that parent involvement is an important 
reform tool.
    I also want to thank you for your efforts to secure a sustained and 
long-term commitment to increased Federal funding for education. Your 
efforts are critical to our success in assuring that all children have 
access to excellent public schools, and we pledge to continue working 
with you and your staff on these issues.
    Before going further, Mr. Chairman, I would also like to say that 
my references to the term parent should be interpreted broadly to 
include all the adults who play an important role in a child's family 
life, since grandparents, aunts, uncles, stepparents, and guardians 
often have primary responsibility for a child's care and education.
    From the perspective of parents, whose job it is to help children 
learn outside the classroom, and from the viewpoint of families who 
have limited resources, I am here today to support Title I and to 
discuss successful implementation strategies.
    Title I is the centerpiece of Federal involvement in elementary and 
secondary education, and ever since it was created in 1965, the program 
has been targeting Federal dollars to the schools and communities most 
in need of assistance to help low-achieving students succeed 
academically.
    Title I has evolved over the years, with changes made in parent 
involvement strategies, the variety of services provided, the scope of 
coverage within schools, and other aspects related to emerging 
instructional beliefs and educational practices, but at its core, the 
program continues to provide basic academic skills to students who need 
additional help in achieving the state's high academic standards. In 
recent reauthorizations, including in the No Child Left Behind Act 
(NCLBA), the changes in Title I focused on coordinating programs, 
expanding schoolwide projects, improving student assessments, and 
increasing accountability. Fundamental to the success of Title I, the 
program remains extremely flexible so that states and school districts 
can decide how their funds are spent to meet local needs.
    The total Federal appropriation for Title I is now over $12 
billion, and its programs touch nearly every school district in the 
country. More than 11 million children receive Title I services. Funds 
are used to develop special curricula that focus on the reading or math 
skills low-achieving students must master, to hire and train teachers 
who specialize in teaching children with special educational needs, or 
to extend the school day for additional instruction.
    Since Title I was enacted, numerous evaluations of the program have 
demonstrated its effectiveness. First of all, research shows that 
Federal dollars are far more targeted to disadvantaged children than 
State funds. On average, for every $1.00 of State funds school 
districts receive for each low-income student, they receive $4.73 in 
additional Federal funding per poor student.
    In addition, Title I funds have helped close the achievement gap 
between disadvantaged and non-disadvantaged children and given states 
and school districts money to implement reforms they would not 
otherwise have been able to afford. According to National Assessment of 
Educational Progress (NAEP) scores, the achievement gap between white 
and minority children is decreasing. Between the early 1970's and 1992, 
the difference in scores for white and black 9-year-olds narrowed by 23 
percent in reading and math. Without Title I, these gaps would likely 
have been greater. More recent NAEP scores show improvements in reading 
for students in grades 4, 8, and 12, and Scholastic Assessment Test 
(SAT) math scores are at a 27-year high level.
    Studies have also been conducted on the programmatic aspects of 
Title I, and education researchers have identified certain common 
elements in effective Title I schools. For example, effective schools 
share clear goals for high academic achievement. They use curricula and 
materials that are linked to strict academic standards, the 
compensatory instruction is well-coordinated with the regular course of 
studies, they have added opportunities for learning in school-based 
before and after-school activities, they place emphasis on quality 
professional development for teachers, and they have meaningful parent 
involvement. National PTA supports the idea that effective schools 
share these and other common criteria. Attached to this statement is 
our list of the components of an effective school.
    If you ask what parents want to,reform education, they will respond 
that they want every school to be an effective school. Parents believe 
it is vital to America's future well-being that all children have 
equitable access to a high-quality educational opportunity. Parents 
want the tremendous funding disparities among schools and programs, 
which lead to tremendous disparities in achievement, eliminated.
    For purposes of this statement, l will divide our recommendations 
into two major categories: effectively implementing the parent 
involvement provisions in ESEA and increasing the Federal investment in 
education.
    Over 30 years of research have demonstrated the impact parent 
involvement can have on student achievement, proving beyond dispute the 
positive connection between parent involvement and student success. 
Effectively engaging parents and families in the education of their 
children has greater potential impact than almost any other education 
reform. The evidence is convincing, but the challenge comes in 
transforming knowledge into practice, and practice into results.
    While National PTA strongly supported the efforts during ESEA 
reauthorization to increase student achievement and strengthen 
accountability, we do not like, the overemphasis in the law on testing 
as the primary measure of school or student success. As mentioned, 
National PTA sees a number of other ways to evaluate success, and we 
believe the strengthened parent involvement provisions in NCLBA offer 
critical accountability tools that are being overlooked in 
implementation of the law. National PTA has recommended to the 
Department of Education that they issue regulation or guidance on 
parent involvement to ensure that states and school districts are aware 
of the new provisions and understand what they need to do to make them 
work.
    Instead, most of the attention has been on parental choice, 
particularly the required choice provisions in Title I. Choice, 
however, is NOT parental involvement. In fact, recent articles about 
the choice options in NCLBA indicate that parents are choosing to keep 
their children in their own schools. They do not want to send their 
children to other schools. They want to improve their neighborhood 
schools so they can be a part of their school communities.
    Parents want their children to have qualified teachers. They want 
their children to be in classes that are not overcrowded. They want 
school buildings that are safe from hazards and modernized for today's 
technology. They want their children to have up-to-date textbooks, and 
instructional materials to supplement their instruction. They want 
school-based before- and after-school learning opportunities for their 
children.
    In brief, parents want what the definition of parent involvement 
the NCLBA promises. They want information about their children's 
education. They want training in ways they can be helpful to all 
students. Parents want to be partners in their children's education. 
Most of all, they want a place at the decisionmaking table.
    Let me tell you about how the Tellin' Stories Project brought me to 
the table with my daughter, Ashley. This project is based on the belief 
that all parentsregardless of their nationality, cultural background, 
native language and level of formal education-have the knowledge and 
experience to create their own literature and to serve as sources of 
literacy at home, in the school and in the community.
    Through participation in a series of workshops, parents write and 
share their stories with their children and other parents. These 
stories become a part of the life of the school and the community as 
they` document the struggles and joys of the past and create a vision 
of the future.
    The project provides a much needed bridge that connects parents, 
educators and communities. Through the Tellin' Stories Project, 
parents:

    <bullet> Work collaboratively with other parents from different 
linguistic,; cultural, ethnic and racial backgrounds;
    <bullet> Create a school environment that values all cultures and 
family traditions;
    <bullet> Play more active and meaningful roles in their children's 
classrooms and in the decisionmaking process of the school; and
    <bullet> Help develop the project as a model, which may be used in 
other communities.

    Our parents get involved with our project so they can be more 
involved in the schools their children attend. Like many other models 
of successful parent involvement, Tellin' Stories begins with 
relationship building. When strong relationships can connect parents to 
the school, solutions to other problems can be developed. When regular 
communications can cover issues such as teacher quality, safety, 
absenteeism, parents can help coordinate their advocacy efforts.
    National PTA believes all schools can have this type of effective 
parent involvement if it is made a priority at the State and local 
levels. National PTA believes Congress and the Department of Education 
can help create strong partnerships, and recommends that:

    <bullet> A school's parent involvement policies should be evaluated 
along with its progress in raising student achievement, its offering of 
professional development opportunities, and the other requirements of 
the law. If parent involvement is part on a school's overall 
assessment, it will be likely more effective, and the increased parent 
involvement will have a beneficial impact on student achievement and 
other school improvements.
    <bullet> There needs to be increased technical assistance from the 
Federal to State level and from the State to districts and local 
schools on how to institute effective parent involvement research and 
practices. This could be accomplished in part through the use of 
existing, and new, parent resource centers, which could serve as 
clearinghouses of information helpful to states and schools.
    <bullet> An increased emphasis on information sharing and 
dissemination is needed, through the Federal Government to the states 
and through the states to local districts. As mentioned earlier, there 
are thousands of successful schools across the country and thousands 
more that could benefit by replicating model programs of what is 
working.
    <bullet> Title I professional development activities must include 
training on how to foster relationships with parents and encourage 
parent involvement.

    The parent involvement provisions in Title I and other parts of 
ESEA provide a sensible outline for schools to develop stronger 
relationships between parents and educators. When parent involvement is 
a comprehensive, well-planned partnership, student achievement will 
increase. However, too often, the parent involvement provisions in 
Title I are not adequately implemented. That is why National PTA 
believes the Department of Education and Congress need to make this 
issue a priority at the State and local levels. ESEA helps educators 
and parents build partnerships, but these provisions are only as 
effective as the commitment and resources to implement them. National 
PTA continues to maintain that if ESEA is to help improve student 
achievement, and parent involvement is a leading indicator of success, 
then creating strong partnerships between the home and the school must 
be a priority for the Department of Education and the states.
    Increasing resources must be a priority at the Federal level too. 
In fact, the biggest problem states and schools face in adequately 
implementing Title I is lack, of funding. The Congressional Research 
Service estimates that the program only fully serves about one third of 
all children who are eligible'. We cannot expect 100 percent results 
when we only invest 35 percent.
    Schools are under tremendous pressure to prepare students for jobs 
of the future, but they face enormous challenges in carrying out this 
mission. Schools are contending with record high student enrollments, 
an increased percentage of students with special needs, including 
limited-English proficiency (LEP) a projected teacher shortage, rapidly 
changing education technology demands; and a staggering need for school 
construction and modernization. 1n addition, states and schools must 
comply with new demands in the law and the recent economic downturn 
that has created deficits in State budgets that are in many cases being 
paid for with cuts to education:
    Consider, these facts:

    <bullet> This year, as a result of the ``Baby Boom Echo'' 
population growth, elementary and secondary schools will enroll 53.2 
million students, nearly half a million more than last year. New 
enrollments will continue to grow for the next 7 years, with more than 
54 million students expected in 2008!
    <bullet> The Department of Education has reported that a large 
number of teachers are nearing retirement, which together with the 
unprecedented enrollments, is fueling a teacher shortage that will 
require hiring an estimated 2.2 million teachers over the next 10 
years.
    <bullet> The U.S. General Accounting Office estimates the cost of 
simply repairing schools to bring them up to minimal health and safety 
codes would cost $112 billion. In addition, an estimated $73 billion is 
needed to accommodate the rising enrollments, and billions more are 
needed to bring schools up to date with 21st century technology needs.

    The reality is, while states and local communities have always had 
primary responsibility for creating excellent schools and are 
contributing all they can to their schools, they simply cannot do it 
alone. They need help from the Federal Government, which has as one of 
its primary roles to ensure access and equal opportunity to high 
quality education for all children. National PTA believes the Federal 
Government should provide budgetary appropriations that are adequate to 
meet these goals, particularly in economically disadvantaged areas, and 
to prepare the future workforce to meet the nation's economic and 
defense needs.
    Public education advocates are often criticized when they ask for 
more money. The reality is, however, that not one Federal education 
program has ever been funded to the level that would provide services 
to all who are eligible. Further, in a poll conducted for the Committee 
for Education Funding, the nation's largest education coalition, 84 
percent of voters said it is important that Federal funding for 
education, from Kindergarten through college, receive a substantial 
increase this year even if it means a larger Federal budget deficit.
    The overall needs for elementary and secondary education are 
staggering, but even a quick glance at Title I shows the dramatic 
funding needs:
    <bullet> The program only fully serves about one-third of those who 
are eligible. To provide services to all would cost a total of $24 
billion.
    <bullet> Up to 20 percent of the funds from Title I may be taken 
from basic services to pay for supplemental services and transportation 
costs associated with public school choice.
    <bullet> The new assessments, accountability, and teacher quality 
requirements will cost money to implement, and there are insufficient 
funds to cover the costs.

    Is money the only solution to problems in education? No, but we 
cannot assure that all teachers are highly qualified or implement 
parent involvement strategies as required in Title I, not to mention 
reduce class size, build and repair school facilities, provide needed 
support services, or purchase equipment and materials for free.
    National PTA believes that public education provides a common 
experience for building and maintaining a basic commitment to the 
values of a democratic--system of government. A strong public education 
system is vital to our nation's well-being, and the Federal Government 
must be an active participant in strengthening this system. The 
Congress and the White House must continue to work together to 
strengthen America's system of public education so that effective 
schools provide education excellence for all children to achieve high 
standards, become responsible citizens, and attain economic self-
sufficiency.
    Thank you for this opportunity to present our views today. I will 
be happy to answer any questions you may have.

    The Chairman. Thank you very much for your testimony and 
for all the testimony.
    What we were hoping to hear today is the reaction from 
those who are out in the field about the implementation of the 
No Child Left Behind Act, and I think we have received some 
very useful and important information on that particular 
challenge, and I am grateful.
    I would like to start with Dr. Wheelan if I could. We saw 
as recently as today in The Washington Post the headline, ``Top 
Teachers Rare in Poor Schools,'' and there is another story as 
well with regard to reading issues and lack of funding. But I 
would like to just focus on ``Top Teachers Rare in Poor 
Schools.'' It talks about ``Twenty percent of teachers in high-
poverty schools left teaching and moved to other schools in 
1999 compared to 12 percent in low-poverty schools.''
    ``Many education experts say that teachers must be paid 
more and supported by good administrators.''
    The story goes on:

    ``Bruce Fuller, professor of education and public policy at the 
University of California: `But when it comes to professionalizing the 
teaching force, Mr. Bush has simply told the States that they must 
magically figure out a way to upgrade teacher quality, with no new 
resources.' ''

    We also have the report that has come out from the 
Southeast Center for Teaching, which shows that ``Kids with 
uncertified teachers have 20 percent less academic growth.'' We 
have those studies here.
    I do not think it surprises the members of our committee, 
when we passed the No Child Left Behind Act, about the 
importance, among others, of having well-qualified teachers.
    These studies underscore the importance of meeting the goal 
set out to ensure a highly-qualified teacher in every 
classroom. You have stated that you plan to do all that you can 
to meet the goal, including the professional development and 
mentoring programs. Can you elaborate on how you are doing 
this? Do you have the resources to do it? What additional help 
and assistance do you need?
    What can you tell us about your programs in your State, the 
kind of success that they are having, and what needs to be done 
to really make a difference?
    Ms. Wheelan. The Governor has put in place a task force to 
study teacher quality that is comprised of members of the 
higher education community as well as the business community 
and people from K-12 as well, so that there is a dialogue to 
match what is needed in the classroom versus what the 
universities are teaching in the classroom. While that may seem 
kind of common sensical, it has never happened before. We have 
had our higher education institutions teaching what they 
thought teachers needed to be able to do in classrooms, and in 
some cases had never visited a classroom, other than during 
student teaching.
    One thing that I think has happened is that teaching 
started out as a women's profession, and women did not need a 
lot of money because they were not the sole source of their 
household, so we have never caught up with the kind of dollars 
that we put into other professionals. Given the infusion of the 
information technology arena and all the other jobs that are so 
much better-paid, we are losing a lot of quality people to 
other fields.
    Having said that, I think what we are recognizing is that 
different school divisions, because of the populations of their 
children, do have different needs, and our higher education 
teacher training programs are recognizing that and now trying 
to provide the kind of--if you are going to a rural area, these 
might be your challenges; if you are going to a high-income 
area, these may be your challenges; if you are going to a 
district that has a large English-as-a-second-language 
population; recognizing also that working for ``seasoned'' 
teachers--I like that word better than ``old''--for seasoned 
teachers to be matched with new teachers is extremely 
important, and that is not something that has been done 
regularly. So we are in the process of working with seasoned 
teachers to help them remember what it was like to be new 
teachers and what they need to do to help the new teachers. 
Probably the most frightening thing for a new teacher is that 
first day of class, when we have had all this education and 
training, but now it is me by myself. To have a seasoned 
teacher even just stop by during the day and say, ``How are you 
doing?'' and so on is very important. So we have formalized 
programs that are doing that.
    We also have a cadre of retired teachers that we are 
bringing back to mentor some of the new teachers--but again, 
there are dollars involved when people are no longer on the 
payroll to provide incentive to bring them back. So additional 
dollars are needed for those kinds of mentoring programs as 
well as to recruit teachers into some areas that they may not 
consider working in, for example. Our small and rural 
communities are having a devilish time getting people to move 
to those communities because there is nothing else there, but 
counties like Fairfax County right outside Washington, DC are 
having just as much difficulty, because again, the challenges 
of working with students who have many disabilities and speak 
other languages is a challenge to them, and when you have 25 
children in a class, all with different needs, it is very 
tough.
    The Chairman. In one of the interesting programs that I saw 
when I visited North Carolina, they were actually recruiting 
people in these rural areas and training them. So, rather than 
trying to train teachers and sending them there, they were 
identifying people who were living there and training them.
    Ms. Wheelan. There are a lot of ``grow your own'' programs. 
I was out in Wythe County, for example, the other day during a 
convocation, and of the 30 new teachers, 18 of them graduated 
from the local high school. So there is a lot of that going on.
    The Chairman. Yes, good.
    In terms of having well-qualified teachers in the 
classrooms in Virginia, have you set some markers or some goals 
as to when Virginia is going to be able to do that?
    Ms. Wheelan. By 2005-2006, because that is what the law 
says.
    [Laughter.]
    The Chairman. That is what the law says, but I was just 
trying to get a little feel for that.
    Ms. Wheelan. I think some divisions are farther along in 
being able to do that, but across the Commonwealth, it is going 
to take us that long.
    The Chairman. Good, and we want to try to help you do it.
    Let me ask you about the PASS program and how that is 
working. We have seen similar kinds of efforts made where 
States have developed teams that have the technical information 
and skills as well as the political skills to work within 
schools to help them improve.
    Tell me about your PASS program.
    Ms. Wheelan. There is an excitement across the Commonwealth 
in both the academic community and the local community. 
Businesses are stepping up to the plate and offering their 
employees to be able to come in to do some mentoring and 
tutoring, or to do some painting, or to do some planting of 
plants, whatever it is that brightens up the learning 
environment and helps the children.
    The faith-based community is stepping up to the plate in 
after-school and before-school and weekend programs to provide 
tutoring and mentoring for those students.
    The academic teams that are going in are really exciting, 
because for once, we have educational institutions talking to 
each other from across the State. We have matched teachers and 
principals from Fairfax and Arlington and Loudon Counties here 
in northern Virginia with those in the city of Richmond, for 
example, because they have similar populations. Sometimes, it 
is just a matter of saying, ``You know, they are asking you 
these questions on the test, but you are not teaching this in 
your curriculum; you have not lined up your curriculum.'' To 
hear that from a colleague is very different than the principal 
coming in and saying, ``You are not doing your job.'' So it is 
going very, very well. Of course, we have only been into it for 
3 weeks in the school year, but just building the excitement, 
and every time we have a gathering of folks, people are signing 
on more and more to get involved.
    The Chairman. Good.
    Let me ask Dr. Moloney, but also Dr. Wheelan and others, 
about the supplemental services. How have you begun to plan for 
the supplemental services, and how are we going to ensure that 
they are high-quality? I would be interested in other 
reactions, too.
    Dr. Moloney.
    Mr. Moloney. I think the newness of the opportunities has 
obviously created some complexity. In the education industry, 
we are not famous for our rapid flanking movements, and a lot 
of districts are struggling with this.
    We have a shortage of providers, because there has not been 
support for these kinds of services in law, certainly Federal 
law, in the past. Some districts are doing quite well. They 
have been imaginative. We have done our best to facilitate at 
the State level.
    I would not for a minute say that the Congress should have 
had a longer time line, because frankly, I do not think you 
would have the level of attention to this if the time line had 
not commenced with this school year.
    So better than we wrestle with these teething problems now. 
I can assure you that as time goes by, the performance will be 
much more to your liking. It is an exciting opportunity.
    The Chairman. I will hear from others--Dr. Wheelan and then 
Dr. Casserly.
    Ms. Wheelan. In the Commonwealth, the Board of Education 
has developed a list of the services that are needed based on 
the law, and we have put out a group of RFPs, and we have 
gotten responses from all across the country--we are very glad 
about that--and by the end of the month, we should have a list 
of those services.
    It becomes extremely important in the city of Petersburg, 
which has 10 schools, none of which is accredited, so there is 
no place for those children to go within the city of 
Petersburg. The surrounding school divisions of Chesterfield 
and Hanover are already filled to capacity, so there are not 
many seats available for them. So those supplemental services 
will become very important.
    The Chairman. Dr. Casserly.
    Mr. Casserly. This is kind of a mixed picture in terms of 
the implementation. Virginia and Colorado have been two of the 
States that have provided approved supplemental service 
provider lists to the local level, way ahead of many other 
States. We are discovering that many of our cities, however, 
have not received those lists, so many have gone about the 
process of trying to implement supplemental services on their 
own.
    In some cases where the cities do have their lists--places 
like San Diego, for instance; San Diego is about the process of 
implementing supplemental services after school, including the 
San Diego school district proper, but we are finding that the 
three other service providers in the district have already 
indicated to the school system that they are at capacity and 
cannot take any more kids.
    So we are struggling a little bit with this, and the 
process is not moving quite as fast as we had initially hoped, 
but I agree with Bill Moloney that over time, this will work 
out, and the good will of the people at the State and the local 
level will get this thing implemented. But it is a little 
slower on the uptake than we had originally expected.
    The Chairman. Mr. Casserly, you talked about the progress 
that is being made in the 24 cities you surveyed. What are the 
common needs of the cities, and what are your recommendations, 
and what has been the budget impact in terms of the 
implementation of these requirements?
    Mr. Casserly. The initial challenges that we have really 
deal with supplemental service provisions, as I indicated, and 
with the choice provisions. We certainly, over the long term, 
are running into difficulties where we are going to need 
technical assistance in how to boost our overall student 
achievement, which is the overall goal of this legislation, and 
that is going to take both expertise from the State level and 
funding from the Federal level.
    The choice provision has been particularly difficult to 
implement. We are running into cases in some cities, as I 
indicated in my initial statement, where cities simply do not 
have the capacity because so many of the schools are 
overcrowded already, and we haven't been able to place as many 
kids as we would like.
    We have discovered, however, from information collection 
that we have been doing, that tens of thousands, in some cases 
100,000 or more parents in some of the cities, have been 
notified that there are choice options, but the number of open 
seats is just not what we would have initially wanted. But I 
expect that over time, we are going to make this situation 
better.
    One other thing that has been helpful for us is that in 
cities that were able to mesh their open enrollment programs 
with the choice provisions have had an easier time implementing 
choice. But most of the cities were not able to get those two 
processes to jibe because they had not been notified yet as to 
which schools in the spring were going to be in school 
improvement.
    I think that in the outyears, what you will see is school 
districts meshing their open enrollment plans with this choice 
provision in ways that are going to give parents even greater 
options.
    The Chairman. Just a final two questions. What do you hear 
from your cities in terms of the pressure that they have in 
terms of resources and the cutbacks from the State? Is that 
having an impact in terms of the implementation of No Child 
Left Behind?
    Mr. Casserly. We are under extraordinary pressure. I cannot 
think of another institution, public or private that is under 
as much pressure as we are to improve our overall performance. 
But one of the things that has added to that pressure is the 
budgetary cutbacks that we have experienced over the last year 
or so. I think that on average, our cities have taken budget 
cuts of anywhere between 10 and 15 percent of their operating 
budgets. The Federal Government was really very, very helpful 
in stepping up to the plate this last appropriations cycle, but 
we are going to need those kinds of increases repeated in the 
next couple of years in order to get this law implemented 
successfully, because the cutbacks have been enormous in these 
cities.
    The Chairman. Finally, Wanda, I want to ask you about your 
involvement in the school and in your child's education. Do you 
find that with the parents that you are talking to now, there 
is a greater effort to involve the parents more? Do you find 
that that is taking place now in your school and local school 
district?
    Ms. Gaddis. Yes. The parents are coming out now, and they 
are getting involved in the school. A lot of the parents at my 
daughter's school, which is Bruce-Monroe, chose to stay there 
and make our school better. We had a few who left, but we feel 
as though we can get our school changed if we stay there and 
work and bring out more friends.
    What we do through the Telling Stories Project is try to 
bring in more parents every day. This morning, we had about 40 
parents in a meeting this morning when I left. So they are 
coming out and being more involved.
    The Chairman. That is certainly the hope, that we are going 
to provide a quality education for all children so they do not 
have to move, and that is certainly something that is going to 
be delayed if we are not providing the resources to be able to 
make those programs work.
    Ms. Wheelan. Senator Kennedy, one of the challenges we 
have, though, is that many of our parents are illiterate, or 
are themselves not high school graduates, and it makes it very 
difficult for them to provide assistance to their own children 
with their homework. So we have also built a literacy component 
into the PASS program so that parents can learn along with 
their children.
    The Chairman. That is very worthwhile, and we have heard of 
the great successes they have had in a number of communities. 
So it is very, very valuable and very worthwhile and to be 
commended.
    Senator Jeffords?
    Senator Jeffords. Thank you, Mr. Chairman.
    Secretary Wheelan, you mentioned in your testimony that 
more often than not, resources are pulled from other 
instructional programs to fund IDEA requirements. Do you have 
an estimate of the dollar amount that has been diverted to IDEA 
from other K through 12 programs within the last year or so?
    Ms. Wheelan. I do not know the specific dollar amount, but 
I can certainly provide that to you once I get back to the 
office.
    Senator Jeffords. I would appreciate that very much.
    Ms. Wheelan. Certainly.
    [Information follows:]

    [Information was not available at press time, however, 
information is maintained in the committee files.]

    Senator Jeffords. What specific K through 12 initiative are 
being shortchanged because of the shifting of dollars into 
IDEA?
    Ms. Wheelan. I would have to let you know, because it 
depends on where they are taking the money from. I do not know 
that any is being shortchanged. I think they are having to find 
other sources of funding for them from local community grants. 
Many of our foundations are having to kick in dollars to 
supplement some of those programs, and we are trying not to let 
them fall through the tracks just because we do not have the 
dollars.
    Senator Jeffords. Can any of the other panelists help me 
out with information in that regard?
    Mr. Moloney. I might offer a thought that would be useful. 
The structure of ESEA, which is 37 years old--it has been 
adapted through various reauthorizations--something that has 
been quite striking in our circumstances and I think in other 
States is that we are in a new era of standards-based 
education, with a premium on rigorous assessment and strong 
accountability. Of necessity, we have had to adapt our uses of 
money to move in a direction of results as the primary test.
    So we make no apology for that. We do not think we are 
shortchanging old programs. Very frankly, some of the old 
programs--this happens in any institution--reflect priorities 
that are no longer as active as they once were. So the 
reallocation of moneys within our Federal programs, within our 
State moneys, is exactly what every school district in our 
State is doing. It is an appropriate response to the 
circumstance--put the resources where they are needed and have 
the courage occasionally to say to some old programs and even 
people still attached to them that we cannot do that anymore or 
that this has not worked as well as we had hoped.
    So I think this is an inevitable process.
    Senator Jeffords. Mr. Casserly.
    Mr. Casserly. I do not have any firm figures for you. I do 
know that our school systems have, as I indicated before, been 
under enormous financial strain because of the dollar cutbacks 
because of the economy. We have also been under enormous 
financial strain because of the tug-of-war over priorities and 
resources within the school system, which is one of the reasons 
why we have always been eager for Congress to pass mandatory 
funding legislation for IDEA to help us take the pressure off 
the budgets and also meet the other priorities that we have in 
the school systems.
    Senator Jeffords. Ms. Gaddis, do you have any comments?
    Ms. Gaddis. No.
    Senator Jeffords. My concern is that we do not recognize--
or, the public does not seem to recognize, or at least the 
voters, that when we fund IDEA, that is a mandatory program 
which is court-required and that if the money does not come 
from where it should, that is, the Federal Government, then it 
has to come from somewhere. To me, that is the most critical 
problem we have, that we could reconcile if we just followed 
the intent of the law, and that is to fully fund IDEA. I do not 
think anybody is going to disagree with me on that, but I 
always want to raise that issue because there is so much 
misunderstanding, and the disabled children get the blame for 
things which are the Federal Government's responsibility.
    Does anyone have any comment?
    Ms. Wheelan. Senator Jeffords, I think one thing that 
happens is that we end up increasing class sizes in the general 
class, for lack of a better classification, in order to be able 
to provide smaller classes for children with disabilities. That 
is one of the shifts that occurs, and while I am not critical 
of that, that then puts a burden on the teacher with a larger 
class to still meet the educational needs of all the children 
who are in that particular classroom. That is the kind of 
impact that creating the services that are necessary for 
students with disabilities when you have to take resources from 
another pot to put into those.
    That is why I said I would not call it being 
``shortchanged'' so much, but it does put a bigger burden on 
it. It means that local school divisions are having to make 
sure that they have facilities that are adequate, and in some 
school divisions, when there is only a handful of children with 
those disabilities and who rightfully should have the services 
that they need, it then creates some shift in the rest of the 
population. Those are the kinds of things that happen as a 
result of those dollars not being there.
    Senator Jeffords. Dr. Moloney.
    Mr. Moloney. I could support what Ms. Wheelan has said. 
Despite the very considerable popularity of the notion of 
reducing class size, we know that it is far and away the most 
expensive reform option open to us, and districts find that 
when they go in that direction, inevitably, they must drain 
other program areas to do that. Often, programmatic changes, 
rather than one or two less in a class, is the better way to 
go. We have seen this in special education. We have a very 
enviable record, I think, of lifting achievement for youngsters 
with disabilities, and we can directly trace that success to 
programmatic changes, not a staff or class size variable.
    Mr. Casserly. One other way to illustrate this tug-of-war 
that Mr. Moloney and Ms. Wheelan mentioned is that about 10 to 
12 percent of all the kids in the cities--and I think probably 
nationally, too--are students with disabilities, but at least 
in the urban areas, services for these children garner about 18 
to 20 percent of the budgets in these school systems, putting 
enormous pressure on other services in the school systems, and 
in an era where things are being cut back, it just puts an 
enormous strain on class sizes and teacher hiring across the 
board.
    Senator Jeffords. Some in the education community have 
expressed concern that due to the increased testing in the No 
Child Left Behind Act and identification of a high number of 
students not meeting adequate performance levels, we may see an 
increase in the number of students being placed in special 
education.
    Would each of you like to comment on that, please?
    Mr. Moloney. There is a lot of ambiguity in this issue. You 
are certainly right in what you are hearing, Senator Jeffords. 
We commonly hear folks say that, ``Well, because there is so 
much testing now, this, that, or the other thing will occur''. 
The fact is that the United States tests 2\1/2\ times as much 
as the average of 16 industrial nations, so beyond a shadow of 
a doubt, there is too much testing going on in this country.
    Inevitably, you have to go to the question of which test. 
Now, something that is playing out I think productively in 
Colorado is that with the great prominence of accountability 
testing which we began nearly 10 years ago and which you have 
ordained in H.R. 1, districts are making different kinds of 
decisions about their testing budgets. So what we are seeing is 
an actual decline in the amount of testing occurring and an 
actual decline in the amount of money being spent on testing in 
many, many districts. We regard this as a positive thing.
    Particularly in some of our larger districts, we had an 
extraordinary array of different testing systems. We have 
talked with folks in Denver, Colorado Springs, and elsewhere, 
and testing systems tend to outlive their usefulness but not go 
away. So it has compelled some rigorous decisionmaking, and I 
think that that is a positive thing.
    Mr. Casserly. I think this is a real danger that we have to 
be mindful of, that the testing requirements would result in 
the kinds of over-identification that you have indicated. On 
the other hand, there is an opportunity here to use tests more 
wisely and to use them in a way to make sure that as students, 
particularly in their reading skills, start to fall behind that 
we put interventions in place in order to boost their reading 
scores rather than placing them in a special education program.
    So I think there is a way of making the assessment system 
work in such a way to avoid exactly the fear that you are 
expressing. But I think it is worth being vigilant about this, 
because not everybody is going to use the assessments in this 
way.
    Ms. Wheelan. I have no data to support what you are 
suggesting, that the students are moving into special education 
classes instead because of the testing. We, like Colorado, have 
been in this business of assessment for at least 7 years, and I 
think that what we are doing instead is providing those 
additional services that students need before and after school 
to get them up-to-snuff.
    The Act requires assessment once a year, but we do have 
quarterly and every-6-week assessment in many of our programs, 
especially the PASS programs, so that we can keep regular 
progress rather than waiting until the end of the year, when it 
is too late to do anything to help with the child.
    So I am afraid we do not have that. We are currently 
testing in grades, 3, 5, 8, and high school, and the Act 
requires 3 on up, so we are going to have to get additional 
dollars to put in testing in 4th, 6th, and 7th grades. But I 
really do not know of any data in Virginia to support that 
those students are moved into special education. We even had a 
requirement that the State had put in before No Child Left 
Behind came along, that by the year 2003, this year, students 
had to pass an English and math test in the Commonwealth in 
order to get a high school diploma; otherwise, they will get a 
certificate of attendance. Schools have been working with 
parents for the last 3 years to make sure that we have 
alternatives to those exams to getting them to graduate, 
because the students in last year's and this year's classes did 
not have the benefit of 12 years of Standards of Learning, 
which is what we call our assessment system. Then, we recognize 
that they have not had all the instruction that perhaps they 
need to be successful. So we have put in other programs, but we 
have not put them in special education programs.
    The Chairman. Senator, we are running short on time.
    Senator Jeffords. Dr. Moloney wanted to comment.
    The Chairman. Yes, go ahead. I will go over and vote, and I 
will tell them you are coming.
    Senator Jeffords. Dr. Moloney.
    Mr. Moloney. Just one additional note. You are absolutely 
correct, Senator Jeffords. This issue of over-identification 
has been with us for a long time. I recall it very well as a 
superintendent in Pennsylvania nearly 20 years ago.
    What we found when we examined this was that the variable 
that led most commonly to over-identification was financial 
incentive. I think Massachusetts is experiencing something like 
this now. That certainly was against the intent of what the 
State legislature had wished.
    But very frankly, where there were financial incentives to 
identify more youngsters, invariably, more youngsters were 
identified. The State of Pennsylvania changed its legislation, 
and you saw a change there.
    I think--and I feel strongly on this--that one of the best 
things about our program in Colorado--and others have noticed 
that, and credit has to be given to the 1994 reauthorization--
is that we have drawn youngsters with disabilities into the 
arena of accountability and assessment in a way that they have 
not been there before. This has been widely applauded by 
parents of children with disabilities to, as much as possible, 
make their experience the same as that of other youngsters. The 
youngsters have responded to that. They do not have a feeling 
that they are being allowed to slip off the radar screen.
    So there are complex dynamics in over-identification, and 
sometimes our intentions go in perverse directions.
    Senator Jeffords. I thank all of you. We have a vote on 
now, so I will thank you for this very helpful information in 
this crisis that we have. I look forward to working with you in 
the future, and I know that I speak for Senator Kennedy as 
well. So keep up the good work, and keep the good information 
coming to us.
    Thank you. The hearing is adjourned.

                          Additional Material

                                    Office of the Governor,
                      Commonwealth of Virginia, September 20, 2002.
Hon. Edward M. Kennedy, Member,
U.S. Senate,
317 Russell Senate Office Building,
Washington, DC.

    Dear Senator Kennedy: This is in response to your questions asked 
of me last week when I testified before the Senate Committee on Health, 
Education, Labor and Pensions on the implementation of No Child Left 
Behind (NCLB). During my testimony I emphasized the need for Congress 
to fully fund the Federal share of the Individuals with Disabilities 
Education Act (IDEA). Lack of sufficient resources to comply with IDEA 
mandates has not only made it difficult for school divisions to meet 
the needs of children with special physical, emotional and 
developmental needs, but also lessened the resources available for 
instructional programs for all students. You asked for specific 
examples.
    Virginia currently receives $170 million in Part B funds for IDEA. 
Full Federal funding of IDEA, that is 40 percent of the excess cost of 
providing special education, would be approximately $453 million. At 
the State level, we would utilize the additional State set-aside money 
to enhance professional development opportunities for special education 
teachers including for example: additional stipends and tuition 
payments to assist teachers in becoming endorsed in special education; 
expanding our distance learning endorsement program; additional funds 
to our Training/Technical Assistance Centers; and in-service training 
for special education teachers. This, of course, would enable us to 
better meet the goals of IDEA as well as NCLB.
    Many local school divisions would also use some of the additional 
IDEA funds to enhance the quality of the special education programs 
they currently provide. In addition, from numerous conversations 
throughout the state, I know that all local superintendents stretch to 
find ways to fund IDEA requirements and they contend that some 
instructional needs for other students go unmet as a result. In 
general, examples of unmet needs would include hiring more teachers to 
provide lower class sizes; the need to provide greater compensation to 
attract high quality principals and teachers; facility needs; and the 
ability to serve more ``at risk'' students in prekindergarten programs.
    Attached are more specific examples from four school divisions of 
some priority needs they would pursue if they did not have to fund the 
Federal portion of IDEA. The four divisions provide a representative 
cross-section of rural and urban, large and small. It is assumed, of 
course, that IDEA's prohibition against ``supplanting'' would be 
clarified so as not to penalize local school divisions who have paid 
the Federal portion for decades.
    Thank you for the opportunity to provide this information. I hope 
it is helpful. Please do not hesitate to call if you have any 
questions.
            Sincerely,
                                   Belle S. Wheelan, Ph.D.,
                                            Secretary of Education.
                                 ______
                                 
Virginia Local School Divisions--September 19, 2002 Survey-Full Funding 
                                of IDEA
                      giles county public schools
2,538 students; $179,900 annual increase in Federal funding if IDEA is 
        fully funded.
    Should Giles County Schools receive full funding or increased 
funding for IDEA requirements, we would begin to reduce our annual debt 
service of $2,000,000 by redirecting those funds to:

    <bullet> Reduce class sizes from the current level to 15:1 in at 
least Grades K-3. This could be accomplished by hiring teachers 
($250,000). Also, reduce class sizes from the current level to at least 
20:1 in Grades 4-7 ($450,000).
    <bullet> Improve educational opportunities for our high school 
students by employing additional teachers to provide higher level math, 
science and technology courses, along with developing on-line courses 
for students to receive instruction in a non-traditional manner to 
accommodate those students who are unable to attend a regular daytime 
class; ($350,000).
    <bullet> Increase our opportunities for career and technical 
training by employing career specialists, teachers, on-the-job training 
worksite trainers and incentive funds for students to participate in 
such programs ($250,000).
    <bullet> Provide additional funds to our teachers for instructional 
supplies at a rate of $50 per child ($125,000)
                   greensville county public schools
2,766 students; $76,100 annual increase in Federal funding if IDEA is 
        fully funded.
    With $76,000, Greensville would hire an additional teacher for 
kindergarten, lowering the pupil teacher ratio from 20:1 to 18:1 and 
also hire two aides to provide,remediation on a computer based 
instructional program to serve 180 students a day.
                     hanover county public schools
16,6111 students; $838,700 annual increase in Federal funding if IDEA 
        is fully funded.
    With an additional $500,000 of available revenue annually, Hanover 
would drive down its class sizes from an average of 20:1 at the primary 
grade levels at selected lower performing schools to an average of 
16:1.
    With an additional $800,000 annually, Hanover would fund a new 
program for 4-year old education, identifying students from families 
who desire the same services currently delivered effectively in Head 
Start progranuning, but are services for which Hanover residents may 
not qualify.
    With an additional $800,000 annually, Hanover would incur debt 
service payments of nearly $15 million over 20 years, enabling the 
school district to eliminate largely substandard, temporary classrooms 
and afford all students a safe, nurturing environment for classroom 
instruction.
    With an additional $800,000 annually, Hanover would enhance its 
existing special education programming by adding staff to met many 
unmet needs, including:

    <bullet> educational diagnosticians to conduct evaluations and 
assist with the placement of children;
    <bullet> reading specialists to support those children at risk of 
being referred;
    <bullet> autism specialists;
    <bullet> additional special education buses with wheel chair lifts;
    <bullet> additional cars to support special education needs;
    <bullet> extended contract time for teachers to support the IDEA 
requirements;
    <bullet> additional speech therapists and psychologists to support 
the IDEA requirements; and
    <bullet> upgrade FM systems to support the hearing impaired 
population at all instructional levels.
                      roanoke city public schools
13,800 students; $1,116,100 annual increase in Federal funding if IDEA 
        is fully funded.
    Examples of how Roanoke City School division would utilize 
$1,116,100:

    <bullet> Implementation of a seven period day for two high schools 
(costs $1.028 million) in order to provide 3,150 high school students 
with additional academic course options (Roanoke City now has a six 
period day which limits students' elective choices).
    <bullet> Expansion of our present preschool program to additional 3 
year old at risk students would serve 375 children who require academic 
and social preparation to be successful at the primary grade level at a 
cost of $996,000.
    <bullet> Expansion of our after school tutoring and mentoring 
program for middle school students would serve 450 children who are at 
risk for academic failure and dropping out at a cost of $227,500.

    [Whereupon, at 11:02, the committee was adjourned.]
      

                                    

</pre></body></html>
